<html>
<title> - THE PERSPECTIVE OF THE FAMILIES AT CRANDALL CANYON</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
           THE PERSPECTIVE OF THE FAMILIES AT CRANDALL CANYON

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

            HEARING HELD IN WASHINGTON, DC, OCTOBER 3, 2007

                               __________

                           Serial No. 110-66

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html


                    U.S. GOVERNMENT PRINTING OFFICE
37-913                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on October 3, 2007..................................     1

Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............     7
    McKeon, Hon. Howard P. ``Buck,'' Senior Republican Member, 
      Committee on Education and Labor...........................     4
        Prepared statement of....................................     6
        Letter from Governor Huntsman, dated Dec. 3, 2007........    77
    Miller, Hon. George, Chairman, Committee on Education and 
      Labor......................................................     1
        Prepared statement of....................................     3
        Text of H.Res. 631.......................................    76

Statement of Witnesses:
    Allred, Steve, brother of Kerry Allred.......................     8
        Prepared statement of....................................     9
    Black, Wendy, wife of Dale ``Bird'' Black....................    14
        Prepared statement of....................................    17
    Holland, Wayne, Utah staff representative, United 
      Steelworkers of America....................................    39
        Prepared statement of....................................    40
    Huntsman, Hon. Jon M., Jr., Governor, State of Utah..........    36
        Prepared statement of....................................    38
    Marasco, Michael, son-in-law of Kerry Allred.................    10
        Prepared statement of....................................    11
    Phillips, Sheila, mother of Brandon Phillips.................    13
        Prepared statement of....................................    13
    Roberts, Cecil E., president, United Mine Workers of America.    46
        Prepared statement of....................................    47
        Additional submission....................................    55
    Sanchez, Cesar, brother of Manual Sanchez....................    11
        Prepared statement of....................................    12
    Watzman, Bruce, vice president, safety, health and human 
      resources, National Mining Association.....................    41
        Prepared statement of....................................    42

Additional Prepared Statements:
    Allred, Cody, son of Kerry Allred............................    78
    Erickson, Nelda, and Amanda Romero, wife and daughter of Don 
      Erickson...................................................    79
    Joint statement of the families of the miners lost...........    77
    Kimber, Kristin, mother of the children of Brandon Kimber....    79
    Payan, Jose Luis, brother of Juan Carlos Payan...............    79
    Phillips, Casandra, sister of Brandon Phillips...............    80
    Sanchez, Aydaliz, daughter of Manual Sanchez.................    80
    Sanchez, Marta, wife of Manual Sanchez.......................    81


                         THE PERSPECTIVE OF THE
                      FAMILIES AT CRANDALL CANYON

                              ----------                              


                       Wednesday, October 3, 2007

                     U.S. House of Representatives

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:36 a.m., in room 
2175, Rayburn House Office Building, Hon. George Miller 
[chairman of the committee] presiding.
    Present: Representatives Miller, Payne, Andrews, Scott, 
Woolsey, Tierney, Kuchinich, Wu, Holt, Grijalva, Bishop of New 
York, Sarbanes, Sestak, Loebsack, Hirono, Yarmuth, Hare, 
Clarke, Courtney, Shea-Porter, McKeon, Petri, Castle, Platts, 
Wilson, Kline, and Bishop of Utah.
    Also present: Representative Matheson.
    Staff present: Aaron Albright, Press Secretary; Tylease 
Alli, Hearing Clerk; Jordan Barab, Health/Safety Professional; 
Jody Calemine, Labor Policy Deputy Director; Lynn Dondis, 
Policy Advisor for Subcommittee on Workforce Protections; 
Patrick Findlay, Investigative Counsel; Michael Gaffin, Staff 
Assistant, Labor; Peter Galvin, Senior Labor Policy Advisor; 
Ryan Holden, Senior Investigator, Oversight; Brian Kennedy, 
General Counsel; Thomas Kiley, Communications Director; 
Danielle Lee, Press/Outreach Assistant; Alex Nock, Deputy Staff 
Director; Joe Novotny, Chief Clerk; Michele Varnhagen, Labor 
Policy Director; Michael Zola, Chief Investigative Counsel, 
Oversight; Mark Zuckerman, Staff Director; Robert Borden, 
Minority General Counsel; Kathryn Bruns, Minority Legislative 
Assistant; Cameron Coursen, Minority Assistant Communications 
Director; Ed Gilroy, Minority Director of Workforce Policy; Rob 
Gregg, Minority Legislative Assistant; Richard Hoar, Minority 
Professional Staff Member; Victor Klatt, Minority Staff 
Director; Alexa Marrero, Minority Communications Director; Jim 
Paretti, Minority Workforce Policy Counsel; Molly McLaughlin 
Salmi, Minority Deputy Director of Workforce Policy; Linda 
Stevens, Minority Chief Clerk/Assistant to the General Counsel; 
and Loren Sweatt, Minority Professional.
    Chairman Miller. The Committee on Education and Labor will 
come to order to conduct an oversight hearing on the accidents 
in Crandall Canyon Mine. This is not an investigative hearing. 
This is an oversight hearing.
    I want to thank all of the members for their attendance 
and, certainly, thank all of those who have traveled to 
Washington for this hearing from Utah.
    In August, we all watched the unfolding tragedy at Crandall 
Canyon Mine with deep sadness. After the collapse, six miners 
never came out of the mine again, and three brave rescuers 
attempting to reach their fellow miners also died. Family 
members whose miners and rescuers perished are with us today.
    On behalf of all of my colleagues, I want to express our 
sympathies to each of you and to your families. I know that 
your testimony today will be painful for you to deliver, but it 
is critical for us to hear from you directly. Families must be 
able to speak for those who have died. I thank you very much 
for agreeing to participate in today's hearing.
    I would also like to thank all of the brave miners involved 
in the rescue effort. We greatly admire their devotion and 
selflessness, and we wish a speedy recovery for those who were 
injured.
    I would also like to extend our gratitude to Governor Jon 
Huntsman and Congressman Jim Matheson for their concerns and 
involvement in helping the families and the miners during the 
rescue efforts and for joining us here this morning. I want to 
thank both of their offices publicly for the cooperation they 
provided to the staff from both sides of the aisle who went out 
to Utah immediately after the accident. They were very helpful 
in helping the staff make contacts with local people and with 
their offices and with the agencies.
    Today, we will first hear from a panel of family members 
about how this tragedy has affected them, and then we will hear 
from a panel of leaders and policymakers to provide further 
context for this tragedy and what we must learn from it. I will 
be introducing all of those witnesses shortly.
    This month, the committee intends to mark up additional 
legislation that would build on the legislation approved by 
Congress last year to improve mine safety. The committee is 
also committed to a thorough investigation of what happened at 
Crandall Canyon Mine.
    In late August, we requested a comprehensive list of 
critical documents and communications from both Murray Energy 
Corporation and the Department of Labor to help us with our 
independent investigation of the Crandall Canyon Mine Tragedy. 
I regret to say that neither the Department nor the company 
have been fully cooperative with us to date. They have yet to 
comply with many of the basic requests for information, 
information that is necessary for the committee to investigate 
this disaster.
    Let me be very clear. This committee will not be deterred 
from getting all of the information we need to do our 
independent investigation, and we will not tolerate obstruction 
and delay by either the Department or by the company in pursuit 
of that information and this investigation. We will take every 
action necessary to hold individuals responsible for what 
appears to have been a preventable tragedy.
    We believe it is critical to get the truth of the events 
before, during and after this disaster in order to prevent 
another one. The families of the miners who died, the miners 
who continue to work underground and the communities in which 
they live deserve to know the straight facts.
    We have carefully documented the past year with the 
Department of Labor and how seriously it neglected the 
responsibilities to miners. Over the past few years, the 
Department has cut staffing levels for inspectors, torpedoed 
health and safety regulations and hired top officials who came 
right from the coal industry.
    Today, the Department of Labor is failing to move 
decisively to require miners to have modern state-of-the-art 
wireless communications as soon as the technology becomes 
available. It is failing to require rescue chambers, as West 
Virginia has done, that could immediately provide safe havens 
for trapped miners. It is failing to track compliance with 
rescue plans submitted by mine operators.
    And it failed to take control of the communications with 
the public after the Crandall Canyon disaster as law required. 
Instead, the Department of Labor allowed Mr. Murray to 
repeatedly provide false information to families and public.
    The lessons learned from Crandall Canyon will take some 
time to sort out. There will be no easy, quick answers, but 
this hearing as well as the future hearings that result from 
our investigation will help us learn what steps are necessary 
to make mining safer for those who go underground every day.
    I want to thank all of those who are participating today.
    I would like now to recognize the senior Republican on this 
committee, Mr. McKeon, from California.

   Prepared Statement of Hon. George Miller, Chairman, Committee on 
                          Education and Labor

    Good morning. Welcome to today's hearing on ``The Perspective of 
the Families at Crandall Canyon.''
    In August, we all watched the unfolding tragedy at the Crandall 
Canyon Mine with deep sadness. After the collapse, six miners never 
came out of the mine again. Three brave rescuers, attempting to reach 
their fellow miners, also died.
    Family members of those miners and rescuers who perished are with 
us today.
    On behalf of all of my colleagues, I want to express our sympathies 
to each of you and your families. I know your testimony today will be 
painful for you to deliver. But it is critical for us to hear from you 
directly. I thank you very much for agreeing to participate in today's 
hearing.
    I would like to also thank all of the brave miners involved in the 
rescue effort. We greatly admire their devotion and selflessness, and 
we wish a speedy recovery to the injured rescuers.
    I would also like to extend our gratitude to Governor Jon Huntsman 
and Congressman Jim Matheson for their concern and involvement in 
helping the families and miners during the rescue efforts, and for 
joining us.
    Today we will first hear from a panel of family members about how 
this tragedy has affected them, and then we will hear from a panel of 
leaders and policymakers to provide further context for this tragedy 
and what we must learn from it. I will be introducing all of those 
witnesses shortly.
    This month, the Committee intends to consider additional 
legislation that would build on legislation approved by Congress last 
year to improve mine safety.
    The committee is also committed to a thorough investigation of what 
happened at the Crandall Canyon Mine.
    In late August we requested a comprehensive list of critical 
documents and communications from both Murray Energy Corporation and 
the Department of Labor to help us with our independent investigation 
of the Crandall Canyon Mine tragedy.
    I regret to say that neither the Department nor the company have 
been fully cooperative with us. They have yet to comply with even many 
basic requests for information--information that is necessary for the 
Committee to investigate this disaster.
    But let me be very clear. This committee will not be deterred from 
getting all the information we need to do our independent 
investigation. We will not tolerate obstruction or delay by the 
Department of Labor. And we will not tolerate obstruction or delay from 
the Murray Energy Corporation or from Mr. Murray himself.
    We will take every action necessary to hold individuals responsible 
for what appears to have been a preventable tragedy. We believe it is 
critical to get to the truth of the events before, during, and after 
this disaster in order to prevent another one.
    The families of the miners who died, the miners who continue to 
work underground, and the communities in which they live deserve to 
know the straight facts.
    We have carefully documented in the past year that the Department 
of Labor has seriously neglected its responsibility to miners.
    Over the past few years, the Department has cut staffing levels for 
inspectors, torpedoed health and safety regulations, and hired top 
officials who came right of the coal industry.
    Today, the Department of Labor is failing to move decisively to 
require mines to have modern, state-of-the-art wireless communications 
as soon as the technology becomes available.
    It is failing to require rescue chambers, as West Virginia has 
done, that could immediately provide safe haven to trapped miners.
    It is failing to track compliance with rescue plans submitted by 
mine operators.
    And it failed to take control of communications with the public 
after the Crandall Canyon disaster, as the law requires. Instead, the 
Department of Labor allowed Mr. Murray to repeatedly provide false 
information to families and the public.
    The lessons learned from Crandall Canyon will take some time to 
sort out. There will be no easy or quick answers.
    But this hearing, as well as future hearings and the results of our 
investigation, will help us learn what steps are necessary to make 
mining safer for those who go underground every day.
    I thank you all for coming today.
                                 ______
                                 
    Mr. McKeon. Thank you, Chairman Miller.
    Let me begin by sharing my deepest sympathies with the 
families of those whose lives were lost at Crandall Canyon. 
They have suffered an unspeakable loss, and I thank them for 
being here today to share their powerful personal testimonies.
    On September 5, the House passed a resolution mourning the 
miners and MSHA personnel whose lives were lost, recognizing 
those involved in the rescue effort, and honoring the long 
national heritage of coal-mining families.
    Let me reiterate to the families the deep condolences 
offered by myself and my colleagues.
    The challenges of ensuring mine safety are ones that this 
committee, unfortunately, knows all too well. Last year, in 
response to mining tragedies in West Virginia and Kentucky, 
industry and labor worked together with Congress to enact the 
Mine Improvement and New Emergency Response Act, known as the 
MINER Act.
    With that law, we required MSHA to revise its penalties, 
increase penalties for major violations, undertake several 
studies regarding mining practices and work to improve 
technology for communications underground. We also established 
an aggressive timeline for MSHA to comply with these 
requirements, reflecting the urgency of mine safety reform.
    We have been in regular contact with MSHA since that law 
was enacted, including two public hearings held earlier this 
year to examine the progress that has been made on these 
reforms.
    I appreciate the efforts of MSHA, led by Administrator 
Richard Stickler, to meet those deadlines. I also appreciate 
the efforts of labor and industry leaders to bolster mine 
safety through rapidly changing technology.
    The action taken last year was an important step toward 
improving mine safety. It is possible that some will argue that 
we are not seeing improvement quickly enough. Some may also 
argue that the Crandall Canyon disaster is evidence of the need 
for further legislation.
    I am confident the committee will examine these questions 
in the coming months, and I am hopeful that this examination 
will involve all stakeholders--employees, workers, academics, 
consumer advocates and government--in order to ensure a 
balanced comprehensive process. At this juncture, it is our 
duty to allow the investigation to run its course unimpeded so 
that we can determine what happened at Crandall Canyon and what 
can be done to prevent such a tragedy in the future.
    While the investigation is underway, I believe it is also 
important that information be made available to stakeholders 
seeking answers about this tragedy. That is why I joined 
Representatives Wilson, Bishop and Matheson, along with 
Senators Hatch and Bennett, yesterday to urge MSHA to 
reasonably share information with the newly formed Utah Mine 
Safety Commission. In our letter, we noted that working 
cooperatively with the MSHA personnel would give the Utah 
commission unparalleled insight into how the agency operates 
and lay a positive foundation for future interaction between 
the state and MSHA.
    I believe strongly that nothing should be done that would 
compromise the investigation or jeopardize the ability of MSHA 
to take any enforcement actions that may ultimately be 
necessary. For that reason, my staff has been closely 
monitoring the effects of the administration and working with 
Mr. Miller's staff to ensure the activities of this committee 
do not in any way undermine the federal inquiry.
    At the same time, it is my opinion that MSHA should be 
working collaboratively with the effort underway in the State 
of Utah to ensure as full and open a process as possible. I 
understand that just yesterday, MSHA sent a letter to the Utah 
commission extending additional offers of cooperation. While 
MSHA officials have stopped short of providing the information 
we requested, I believe they are acting in good faith to 
collaborate with the commission, and I urge MSHA once again to 
consider our suggestion that it provide for the duration of the 
investigation any information that could be obtained through 
the Freedom of Information Act.
    In a disaster such as this, it is only natural that we as 
policymakers want to respond quickly, but the desire to act 
must not supersede our obligation to act responsibly. I hope we 
do not rush to judgment, but instead proceed with a thorough, 
thoughtful examination of the facts of this case understood 
within the broader mining industry context.
    The United Mine Workers of America has proposed a broad-
based inquiry such as this, suggesting that it be carried out 
by a bipartisan congressionally appointed commission. I am 
interested in such a concept and hope Mr. Roberts of the UMWA 
who is here to testify today will discuss this proposal in 
greater detail.
    We are here today to hear the stories of those who have 
suffered a tragic loss. Another devastating incident occurred 
just yesterday at a power plant in Colorado. As we understand 
it, five workers became trapped in an empty water tunnel 
approximately a thousand feet underground after a fire broke 
out. This sad event reminds us of the inherent dangers to those 
who work below ground and the complexity of underground rescue. 
I extend condolences to the families of those workers killed in 
Colorado yesterday.
    Finally, let me once again thank the witnesses for being 
here today, particularly the family members who have agreed to 
share their stories. The committee has a history of working 
collaboratively in an inclusive, bipartisan manner to address 
the challenges of mine safety. It is my hope that our review of 
Crandall Canyon and broader issues facing the miner industry 
will maintain that cooperation.
    I yield back the balance of my time.

Prepared Statement of Hon. Howard P. ``Buck'' McKeon, Senior Republican 
                Member, Committee on Education and Labor

    Thank you Chairman Miller.
    Let me begin by sharing my deepest sympathies with the families of 
those whose lives were lost at Crandall Canyon. They have suffered an 
unspeakable loss, and I thank them for being here today to share their 
powerful, personal testimonies.
    On September 5th, the House passed a resolution mourning the miners 
and MSHA personnel whose lives were lost, recognizing those involved in 
the rescue effort, and honoring the long national heritage of coal 
mining families. Let me reiterate to the families the deep condolences 
offered by myself and my colleagues.
    The challenges of ensuring mine safety are ones that this committee 
unfortunately knows all too well. Last year, in response to mining 
tragedies in West Virginia and Kentucky, industry and labor worked 
together with Congress to enact the ``Mine Improvement and New 
Emergency Response Act,'' known as the MINER Act. With that law, we 
required MSHA to revise its penalties, increase penalties for major 
violations, undertake several studies regarding mining practices, and 
work to improve technology for communications underground.
    We also established an aggressive timeline for MSHA to comply with 
these requirements, reflecting the urgency of mine safety reform. We 
have been in regular contact with MSHA since that law was enacted, 
including two public hearings held earlier this year to examine the 
progress that has been made on these reforms. I appreciate the efforts 
of MSHA, led by Administrator Richard Stickler, to meet those 
deadlines. I also appreciate the efforts of labor and industry leaders 
to bolster mine safety through rapidly-changing technology.
    The action taken last year was an important step toward improving 
mine safety. It's possible that some will argue that we are not seeing 
improvement quickly enough. Some may also argue that the Crandall 
Canyon disaster is evidence of the need for further legislation. I'm 
confident the Committee will examine these questions in the coming 
months, and I'm hopeful that this examination will involve all 
stakeholders--employees, workers, academics, consumer advocates, and 
government--in order to ensure a balanced, comprehensive process.
    At this juncture, it is our duty to allow the investigation to run 
its course, unimpeded, so we can determine what happened at Crandall 
Canyon and what can be done to prevent such a tragedy in the future.
    While the investigation is underway, I believe it is also important 
that information be made available to stakeholders seeking answers 
about this tragedy. That is why I joined Representatives Wilson, 
Bishop, and Matheson, along with Senators Hatch and Bennett, yesterday 
to urge MSHA to reasonably share information with the newly-formed Utah 
Mine Safety Commission.
    In our letter we noted that, ``working cooperatively with MSHA 
personnel would give the Utah Commission unparalleled insight into how 
the agency operates * * * and lay a positive foundation for future 
interaction between the state and MSHA.''
    I believe strongly that nothing should be done that would 
compromise the investigation or jeopardize the ability of MSHA to take 
any enforcement actions that may ultimately be necessary. For that 
reason, my staff has been closely monitoring the efforts of the 
Administration and working with Mr. Miller's staff to ensure the 
activities of this Committee do not in any way undermine the federal 
inquiry. At the same time, it is my opinion that MSHA should be working 
collaboratively with the effort underway in the state of Utah to ensure 
as full and open a process as possible.
    I understand that just yesterday, MSHA sent a letter to the Utah 
Commission extending additional offers of cooperation. While MSHA 
officials have stopped short of providing the information we requested, 
I believe they are acting in good faith to collaborate with the 
Commission, and I urge MSHA once again to consider our suggestion that 
it provide, for the duration of the investigation, any information that 
could be obtained through the Freedom of Information Act.
    In a disaster such as this, it's only natural that we as 
policymakers want to respond quickly. But the desire to act must not 
supersede our obligation to act responsibly. I hope we do not rush to 
judgment, but instead proceed with a thorough, thoughtful examination 
of the facts of this case understood within the broader mining industry 
context. The United Mine Workers of America has proposed a broad-based 
inquiry such as this, suggesting that it be carried out by a 
bipartisan, congressionally appointed commission. I am interested in 
such a concept and hope Mr. Roberts of the UMWA--who is here to testify 
today--will discuss this proposal in greater detail.
    We are here today to hear the stories of those who have suffered a 
tragic loss. Another devastating incident occurred just yesterday, at a 
power plant in Colorado. As we understand it, five workers became 
trapped in an empty water tunnel approximately 1,000 feet underground 
after a fire broke out. This sad event reminds us of the inherent 
dangers to those who work below ground and the complexity of 
underground rescue. I extend condolences to the families of those 
workers killed in Colorado.
    Finally, let me once again thank the witnesses for being here 
today, particularly the family members who have agreed to share their 
stories. This Committee has a history of working collaboratively, in an 
inclusive, bipartisan manner, to address the challenges of mine safety. 
It is my hope that our review of Crandall Canyon and broader issues 
facing the mining industry will maintain that cooperation. I yield back 
the balance of my time.
                                 ______
                                 
    Chairman Miller. I thank the gentleman very much for his 
statement.
    All members will be provided the opportunity to put a 
statement into the record.
    And without objection, our colleague, Congressman Matheson, 
will sit along with the members of the committee.
    Hearing none, so ordered.
    [The prepared statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                       From the State of Florida

    Thank you, Mr. Chairman, for holding this hearing on the 
perspective that families impacted by the Crandall Canyon tragedy have 
on mine safety.
    On August 6, the Crandall Canyon Mine collapsed trapping six miners 
several miles below ground. Rescue workers immediately began working to 
save the trapped miners. On August 16, the disaster was compounded when 
a second collapse trapped three rescue workers. Tragically, all six 
miners and three rescue workers died.
    While this committee has heard testimony about mine safety from 
other groups, this is the first hearing in which we will hear from mine 
workers' families. I commend all of you for your strength testifying 
today and extend my condolences to everyone who lost a loved one at 
Crandall Canyon.
    Thank you again, Mr. Chairman, for holding this important hearing. 
I yield back that balance of my time.
                                 ______
                                 
    Chairman Miller. We have numerous family members at the 
witness table this morning, but we will be hearing from five of 
those members.
    We will hear from Steve Allred, who is from Cleveland, 
Utah. Mr. Allred is a disabled coal miner and is Kerry Allred's 
brother. He is here on behalf of Kerry's widow, Bessie, and his 
children, Tiffani, Cody and TyLee. Cody has also joined us 
today.
    Mike Marasco is a fuel tank driver in Helper, Utah. He is 
married to Kerry Allred's daughter, Tiffani, and is speaking on 
behalf of the Allred family.
    Cesar Sanchez is a coal miner and Manny Sanchez's brother. 
He has recently left his job in Wyoming to help Manny's family 
in this time of need. Mr. Sanchez is speaking on behalf of 
Manny's widow, Marta, who is here along with her daughter, 
Aydaliz. I am mispronouncing this.
    Mr. Sanchez. Aydaliz.
    Chairman Miller. Manny and Marta also have a son, Arturo, 
and two daughters, Adriana and Apolonia.
    Sheila Phillips is a surface employee of the Crandall 
Canyon Mine. Ms. Phillips, along with her husband, Jamie, are 
here today on behalf of their son, Brandon. They also care for 
Brandon's son, Gage, who is here with her today.
    Wendy Black is from Huntington, Utah. She is Dale Black's 
wife. Today, Mrs. Black will speak on behalf of her family. 
They have two children, Ashley and Corey, and Mrs. Black's 
father and grandfather were Utah coal miners.
    I want to welcome you and thank you again for agreeing to 
testify.
    Mr. Allred, we will begin with you.

          STATEMENT OF STEVE ALLRED, BROTHER OF MINER,
                          KERRY ALLRED

    Mr. Allred. Thank you.
    I want to thank Chairman Miller for the opportunity to 
testify before the committee this morning. I also want to thank 
United Mine Workers of America for its assistance and generous 
support of our appearance before you.
    In addition to those testifying today and the other family 
members sitting at this table, there are many more family 
members from the Crandall Canyon Mine disaster who are here 
today. Some of them also have prepared written statements, 
Chairman Miller. On behalf of our delegation, I ask that you 
accept all of our written statements for the record.
    Chairman Miller. Thank you. We will. No objection.
    Mr. Allred. I have been a union miner since 1978. I was 24 
years old when I started at the Wilberg Mine just outside of 
Orangeville. I had never been underground before and did not 
care for it for quite a while. In fact, I told myself and my 
family members that I was only going to be in the mining 
industry for about a year, and then I would move on to other 
things.
    But when I was allowed to get into the section work of the 
mine and to do different jobs and the more I learned and the 
more I became friends with my coworkers, my attitude began to 
change. I became addicted. Coal mining got into my blood.
    I became a fireboss and then a miner operator, and it was 
then that I became acquainted with MSHA. I did not like MSHA 
telling me what I could and could not do, and I got frustrated 
with the oversight. I guess you could say we butted heads. Then 
the Wilberg Mine disaster happened in December of 1984, and it 
was a drastic changing point in my life as a coal miner.
    After the fire at Wilberg, during the recovery work, I 
learned so much about the safety aspects of mining and the dos 
and the don'ts. I realized what an important role MSHA can play 
in the safety and protection of miners and the coal mine in 
general. I learned to appreciate the expertise of MSHA.
    In 1993, PacifiCorp bought the Trail Mountain Mine. I was 
among the first few men to go rehabilitate that mine. The Trail 
Mountain Mine was previously a nonunionized operation. As I 
entered the mine for the first time, I was stunned at the 
difference between the nonunion mine and the unionized Wilberg 
Mine. I was shocked and disappointed with both MSHA and the 
previous owners at the terrible safety conditions that were 
permitted to exist without the oversight and protection of the 
United Mine Workers of America.
    At the Crandall Canyon Mine, had the mine operator been 
responsible and held accountable by the United Mine Workers and 
by MSHA, my brother would not have died. So much of the coal 
had been mined that all that was left was coal meant to hold 
the mountain up.
    If the UMWA had been there, the pillars and barriers would 
not have been mined, as the miners who were concerned about the 
mountain coming down would have had a voice. A unionized mine 
would have allowed a safety withdrawal to be called had union 
miners felt that something was not safe. The miners would have 
had the UMWA to back them up had the miners felt that someone 
was going to get hurt or killed.
    This lack of responsibility by the companies and lack of 
oversight by MSHA, coupled with no protection by the UMWA, has 
led to my family's being devastated. Our lives are changed 
forever. My brother Kerry's wife is having a very hard time and 
will for some time to come. Her kids and I are trying to be 
strong for her. That is all we can do. We all know that only 
God can provide her the comfort she needs for the loss of her 
husband.
    Thank you, again, for the opportunity to be here and to 
testify.
    [The statement of Mr. Allred follows:]

      Prepared Statement of Steve Allred, Brother of Kerry Allred

    I want to thank Chairman Miller for the opportunity to testify 
before this Committee. I also want to thank the United Mine Workers 
Association for its assistance and generous support of our appearance 
before you.
    I have been a union miner since 1978. I was 24 years old when I 
started at the Wilberg Mine outside of Huntington. I had never been 
underground before and did not care for it for quite awhile. In fact, I 
told myself and family that I was working with mining for only a year 
and then I would move on to other things. But when I was allowed to get 
into the section work of the mine and to do different jobs and the more 
I learned and the more I became friends with my coworkers, my attitude 
began to change. I became addicted. Mining got into my blood.
    I became a fireboss and then a miner operator. It was then that I 
became acquainted with MSHA. I did not like MSHA telling me what I 
could and could not do and I got frustrated with its oversight. Then, 
the Wilberg Mine Disaster happened in December of 1984 and it was a 
drastic changing point in my life as a coal miner.
    After the fire at Wilberg, during the recovery work, I learned so 
much about the safety aspects of mining and the ``do's'' and 
``don'ts.'' I realized what an important role MSHA can play in the 
safety and protection of miners from the experience. I learned to 
appreciate the expertise of MSHA.
    In 1993 PacifiCorp bought the Trail Mountain Mine. I was among the 
first few men to go rehabilitate the mine. The Trail Mountain Mine was 
previously a non-unionized operation. As I entered the mine for the 
first time I was stunned at the difference between this non-union mine 
and the unionized Wilberg Mine. I was shocked and disappointed with 
both MSHA and the previous owner at the terrible safety conditions that 
were permitted to exist without the oversight and protection of the 
United Mine Workers Association.
    At the Crandall Canyon Mine, had the mine operator been 
responsible, held accountable by the United Mine Workers Association 
and by MSHA, my brother would not have died. So much of the coal had 
been mined from the mine that the only thing left was the support that 
was to hold the mountain up. If the UMWA had been there the pillars and 
barriers would not have been mined, as the miners who were concerned 
about the mountain coming down would have had a voice. A unionized mine 
would have allowed a ``safety withdraw'' to be called had union miners 
felt that something was not safe. The miners would have had the UMWA to 
back them up had the miners felt like someone was going to be hurt or 
killed.
    This lack of responsibility by the companies and lack of oversight 
by MSHA, coupled with no protection by the UMWA, has led to my family 
being devastated. Our lives are changed forever. Kerry's wife is having 
a very hard time and will for some time to come. Her kids and I are 
trying to be strong for her. That's all we can do. We all know that 
only God can provide her the comfort she needs from the loss of her 
husband.
    Thank you again for the opportunity to be here to testify.
                                 ______
                                 
    Chairman Miller. Mr. Marasco?

  STATEMENT OF MIKE MARASCO, SON-IN-LAW OF MINER, KERRY ALLRED

    Mr. Marasco. I want to thank Chairman Miller for the 
opportunity to testify. I also want to thank the United Mine 
Workers of America for making it possible to be here.
    My father-in-law, Kerry Allred, was a coal miner. He was a 
great father, husband, brother, and son and grandfather. He was 
loved by everyone and well known.
    We miss you, Dad.
    I want everyone to know that we are very thankful for the 
thoughts and prayers and for the rescue efforts. You are all 
our heroes.
    I want to focus my comments on how the families were 
treated after the collapse by both the company and by MSHA.
    The past 2 months have been like a roller coaster for all 
of us. From day one, we have been let down by Mr. Murray and by 
MSHA. Mr. Murray told us immediately after the collapse that we 
could trust God and in him, and he would stop at nothing to 
find our loved ones, dead or alive.
    Every day went by when we were thinking, ``Maybe today.'' 
But we just continually got let down. Mr. Murray appears to 
have lost interest pursuing the miners now being discussed, and 
the families are trying to stop that process. We think that the 
families need closure.
    The manner in which Murray and MSHA dealt with us for the 
first 2 weeks after the collapse was unbelievable. They just 
told us what we wanted to hear and not the facts. All we heard 
was earthquake, earthquake. We did not want to hear about 
earthquakes but wanted to know when we were going to see our 
loved ones again. Murray more than once yelled at us when we 
asked questions.
    For the families that are Hispanic, there was no translator 
for the first 2 days, so it was extremely upsetting for them.
    Questions were asked, and the responses were always, ``That 
question has already been asked'' or ``We are looking into 
it.'' I feel that we were not treated with respect we should 
have been given.
    Finally, we made suggestions to help the rescue efforts and 
were just amazed at how quick both Murray and MSHA were to say 
no to all of our suggestions.
    These are just a few examples of how poorly we were 
treated. But time is short. We all have tragedies in our lives, 
but this one that should have not happened happened.
    Thank you again for the opportunity to be here to talk to 
you, and may God bless all miners and their families.
    [The statement of Mr. Marasco follows:]

   Prepared Statement of Michael Marasco, Son-In-Law of Kerry Allred

    I want to thank Chairman Miller for the opportunity to testify. I 
also want to thank the United Mine Workers Association for making it 
possible to be here.
    My father-in-law Kerry Allred was a coal miner. He was a great 
father, brother, son and grandfather. He was loved by everyone, and 
well-known. We dearly miss you, Dad.
    I want everyone to know that we are very thankful for the thoughts 
and prayers and for the rescue efforts. You are all our heroes.
    I wish to focus my comments on how the families were treated after 
the collapse, by both the companies and by MSHA.
    I want to let everyone know how these last two months have been 
like a roller-coaster for all of us. From day one we have been let down 
by Mr. Murray and by MSHA. Mr. Murray told us immediately after the 
collapse that we could trust God and him and he would stop at nothing 
to find our loved-ones. Everyday went by where we were thinking maybe 
today. But we just continually got let down. Mr. Murray appears to have 
lost interest. Sealing the mine is what is now being discussed.
    The manner in which Murray and MSHA approached the families for the 
first two weeks after the collapse was unbelievable. They just told us 
what we wanted to hear and not the facts. All we heard was 
``earthquake, earthquake.'' We did not want to hear about earthquakes 
but wanted to know when we were going to see our loved ones again. 
Murray more than once yelled at us when we would ask questions.
    For the families that are Hispanic, there was no translator for the 
first two days. How does one explain to them what has been going on.
    Questions were asked and the responses were always, ``that question 
has already been asked'' or ``we are looking into it.'' I feel that we 
were hardly treated with the respect we should have been given.
    We made suggestions to help the rescue efforts and were just amazed 
at how quick both Murray and MSHA were to say ``no'' to all of our 
suggestions. These are just a few examples of how poorly we were 
treated.
    We all have tragedies in our lives, but this was one no one ever 
had to experience. Thank you again for the opportunity to be here to 
talk to you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Sanchez?

  STATEMENT OF CESAR SANCHEZ, BROTHER OF MINER, MANUEL SANCHEZ

    Mr. Sanchez. I want to thank Chairman Miller for the 
opportunity to testify and give life to the memory of my 
brother, Manuel Sanchez, or as I called him, Manny. I also want 
to thank the United Mine Workers Association for its generosity 
in making it possible for us to be here.
    As a family, we have many questions. We want to know how 
the mine owner got a permit to do this kind of mining. We want 
to know how MSHA put a rubber stamp on the mining plans 
submitted by the mine owner. We want to know how often this 
mine got inspected by MSHA, especially because there was more 
than one complaint made by the miners about bumps and their 
severity. The company ignored these complaints.
    When he died, my brother had been a miner for 17 years. He 
was concerned about safety and asked for a meeting. The meeting 
never took place. Manny said the mine safety was not right. My 
brother was concerned about safety at the mine, and he had 
asked me to get him a job at the mine that I was working at in 
Wyoming. The Sunday-Monday shift was his last scheduled working 
day for him. Unfortunately, he did not leave soon enough.
    I worked for this company 10 months ago. The company's goal 
was production over safety. With this company, the number one 
goal is cut coal and mine out the longwall production at the 
West Ridge Mine. When you get people that all they care about 
is production and competition and worry about safety later, 
this has been devastating. It was very hard to learn that after 
the tragedy happened, one of the old mine supervisors said in a 
meeting that he had told them not to cut the barriers out.
    As families, we want the truth of what happened. MSHA says 
that the company is thinking about sealing this portal of the 
mine. We feel like this is not being investigated at all. It 
has appeared that MSHA and Murray were together on this in both 
the mining and the rescue.
    Someone needed to look over after our interests, but before 
the collapse, which would have prevented it, and after the 
collapse, to assure everything possible was being done to 
rescue and now to assure everything possible is being done to 
find my brother and the other miners.
    It is very frustrating now to learn that MSHA has prevented 
the United Mine Workers of America from participating in its 
investigation. Someone needs to hear and represent us, the 
victims.
    My brother and I were really good friends. He gave me a 
hard time, and I gave it right back to him. Unfortunately, he 
is not here.
    Thank you again for letting us be here. Thank you.
    [The statement of Mr. Sanchez follows:]

     Prepared Statement of Cesar Sanchez, Brother of Manual Sanchez

    I want to thank Chairman Miller for the opportunity to testify and 
give life to the memory of my brother, Manual Sanchez, or as I called 
him--``Manny.'' I also want to thank the United Mine Workers 
Association for its generosity in making it possible to be here.
    As a family, we have many questions. We want to know how the mine 
owners got a permit to do this kind of mining. We want to know how MSHA 
put a rubber stamp on the mining plans submitted by the mine owners. We 
want to know how often this mine got inspected by MSHA, especially 
because there were more than one complaint made by the miners about the 
bumps and their severity. The company ignored these complaints.
    When he died, my brother had been a miner for 17 years. He was 
concerned about safety and asked for a meeting. The meeting never 
happened. Manny said the mine safety was not right. My brother was so 
concerned about safety at the mine that he had asked me to get him a 
job at the mine I was working at in Wyoming. The Sunday/Monday shift 
was his last scheduled workday for him. Unfortunately he did not leave 
soon enough.
    I worked for this company ten months ago and the company's goal is 
production over safety. With this company the number one goal is to cut 
coal and to out-mine the long wall production at the West Ridge mine. 
When you get people that all they care about is production and 
competition and worry about safety later, the results have been 
devastating. It was very hard to learn that after this tragedy 
happened, one of the old mine supervisors said in a meeting that he had 
told them not to cut the barriers out.
    As families, we want the truth of what happened. MSHA said that the 
company is thinking about sealing this portal of the mine. I feel like 
this is not being investigated at all. It has appeared that MSHA and 
Murray were together on this in both the mining and the rescue. Someone 
needed to look after our interests both before the collapse, which 
would have prevented it, and after the collapse, to assure that 
everything possible was being done to rescue and now to assure 
everything possible is being done to find my brother and the other 
miners. It is very frustrating now to learn that MSHA has prevented the 
United Mine Workers Association from participating in its 
investigation. Someone needs to hear and represent us, the victims.
    My brother and I were really good friends. He gave me a hard time 
and I gave it back to him also. I know that the company that I worked 
for in Wyoming would hire him right now. Unfortunately, he is not here 
to do so.
    Thank you again for letting me be here.
                                 ______
                                 
    Chairman Miller. Ms. Phillips? And Gage.

STATEMENT OF SHEILA PHILLIPS, MOTHER OF MINER, BRANDON PHILLIPS

    Ms. Phillips. First of all I would like to thank the 
Chairman Miller and the committee for inviting us, writing us 
to speak of my son, and my grandson, Gage.
    I wish to thank the United Mine Workers for the generous 
assistance for making this possible for us to be here.
    I want to speak how much we miss Brandon and how we do not 
want this to happen to anyone else. I would like to make the 
mine safer.
    It is just hard to have hope and have your heart broke 
every day and then watch your grandson grow up without a dad. 
It is just----
    And I would like to talk a little bit about Mr. Murray. I 
did not go to very many of the meetings because I could not 
stand to listen to the man. So he was talking about one day 
when he was moving the drill holes, and they had the pad ready 
for one, and then they decided to drill it somewhere else. I 
asked him why there were not two going, and he said the 
mountain could not support two drills going at one time.
    This is a mountain, you know. They could climb it for water 
and fuel and stuff, and he said something else. I do not know 
what it was. And he said, ``We can drill you a thousand holes. 
It would not make any difference.'' They would find them, 
wouldn't they, if they drilled at least a thousand?
    I just miss him, and I would like to know where my son is 
in that hole so I could leave a marker on the mountain.
    Thank you for the opportunity to talk to you.
    [The statement of Ms. Phillips follows:]

   Prepared Statement of Sheila Phillips, Mother of Brandon Phillips

    First of all I would like to thank Chairman Miller and this 
Committee for the invitation to speak of my son, Brandon, and to my 
grandson, Gage. I wish to thank the United Mine Workers of America for 
its generous assistance in making it possible to be here. I want to 
speak on how we miss Brandon and how we do not want this to happen to 
anyone else. It is hard to have hope, only to have your heart broke. It 
is hard to see your grandson left fatherless.
    During our family meetings after the collapse, Mr. Murray was 
talking about changing where they were going to drill. I asked him why 
there was only one drill going and why not two. He told us the road up 
there could not support rigs running at the same time. He also said 
that he could drill a thousand holes and it would not make a 
difference. I would like to know--where the thousand holes are? I want 
to know where my son is even if they never able to get them out of the 
mine.
    Thank you again for the opportunity to be here to talk to you.
                                 ______
                                 
    Chairman Miller. Thank you. Thank you very much. I know how 
tough this is for you and for Gage.
    Ms. Black?

            STATEMENT OF WENDY BLACK, WIFE OF MINER,
                      DALE ``BIRD'' BLACK

    Ms. Black. Hello. My name is Wendy Black, and I would like 
to thank you for giving me this opportunity to speak to you 
today.
    First, I would like to tell you a few things about my 
husband, Dale Black.
    He was a terrific father. He had two beautiful children, 
Ashley, 22, and Corey, 17. Dale loved to four-wheeler ride. He 
liked to boat and hunt and fish and spend valuable time with 
his family and friends.
    Dale ``Bird'' Black was killed on August 16, 2007, at the 
Crandall Canyon Mine while trying to rescue the six trapped 
miners--Brandon Phillips, Don Erickson, Manny Sanchez, Luis 
Hernandez, Carlos Payan and Kerry Allred.
    Dale had 24 years of experience in the mines. Twenty of 
those years were spent at GENWAL. He started at GENWAL in March 
of 1984. That is when GEMWAL was just reopening. He learned to 
run every piece of equipment in that mine, including the roof 
bolter and the miner.
    Dale became a production boss in 1993, and he also had 2 
years as a longwall supervisor. Three-and-a-half of those years 
of his experience was spent at West Ridge where he helped 
portal in three portals and develop new sections and mains.
    He willingly went back to GENWAL because of the H2S, which 
is Hydrogen sulphide, that they had at West Ridge. He went to 
GENMWAL as a section foreman. All the men loved working with 
Dale. They always told me so.
    I have never known my husband to be afraid to go to work, 
but the last part of his life he was. He actually told me he 
was, and why, on August 5. While we were getting ready to go to 
bed, he said that they had been hitting the Richter scale at 
work, and I asked him what he meant by this, and he said that 
they were having big enough bounces at the mines that they were 
registering on the Richter scale.
    So I feel in my heart that he was worried enough about this 
that he was letting me know what was going on. This was the 
night before the initial collapse.
    He also said that the crew members had been discussing 
bounces, and they were worried also.
    On August 6, Dale had went to work for his last day shift 
before his days off. When he drove up to the mines, he met a 
cop at the entrance. That is how he found out about the mine 
collapse. Right way, he was helping to get those men out. I 
found out around 8:00 a.m. that something had happened at 
GENWAL, and I instantly called the mine conspect, and they 
assured me that Dale was all right.
    I did not hear from him again until 10:00 p.m., when he 
arrived home. I was so relieved to see him and that he was 
okay, just really tired and worried about how they were going 
to get those men out of there.
    Every morning from then on, Dale was up and ready to leave 
at 4:15 a.m. Dale and Petie rode to work together every day of 
the rescue because there were so many people up there trying to 
help. I never knew when Dale would get home from the rescue, 
sometimes 8:00 p.m., sometimes 10:00 p.m. I was just glad when 
he came home.
    For the entire rescue, he would get between 4 and 5 hours 
of sleep before he was back up there at the mine trying to help 
in any way. I know how hard it was for all those rescue crews 
to continue to work in there every day, knowing what they knew 
as experienced miners. Still, they never gave up hope.
    On Sunday, August 12, I sat up with Dale because he could 
not sleep. There was a meteor shower that night, so we sat 
outside and he began to cry, and he told me a lot of things 
that had been happening at the mine, for instance, how mine 
manager Gary Peacock came up to Dale and said, ``You know, I 
will be taking this to my grave.'' Gary knows that I know what 
he had said to Dale, because a day or 2 after Dale died, I told 
him that I knew this, and I told him, ``I guess it was Dale 
that had taken what he had done to the grave.'' His expression 
was stunned silence.
    On another instance, on August 5, on day shift before the 
initial collapse, Dale was trying to have his miner operator 
pull back when shift foreman Jesse Gordon came up and asked 
Dale, ``What are you doing?'' Dale said he told him it was too 
risky and he was pulling out. Gordon told Dale, ``You cannot 
leave all that coal. Hit it harder on the bottom.''
    Dale said he wished he would have yelled and argued louder, 
pushed his point. He wanted them to move out further to Section 
121, but he was not being heard. I feel this had something to 
do with the initial collapse on August 6, but he did what he 
was told to do.
    On the last day of Dale's life, August 16, he did not take 
his lunch bucket to work with him, which he did every day, even 
during all of this, and it was also the only day of the rescue 
he drove by himself. Why?
    I have so many unanswered questions about the rescue, like 
who was in charge at the time of the rescue, who approved of 
this mining plan, and who was to oversee this plan and that it 
was being followed correctly, and who in their right mind would 
send rescuers underground while the mine was still bouncing, 
then drill from the top when they had no idea what this would 
do to the stability of the mine while the miners were 
underground mining.
    I would like to know how a K order, which is an imminent 
danger or a closure order, be modified 15 times as they 
proceeded into the mines. To my understanding from fellow 
workers, the plan was that only the minimum amount of workers 
would be in there while the miner was running. When finally 
they got the miner up and ready to go, Bob Murray and the media 
came in. The underground MSHA worker, Mike Shumway, told the 
operator not to start the miner until the plan was being 
followed, and another MSHA worker, Ted Farmer, overrode this 
plan and told them to proceed.
    My husband felt that he had to be there because of these 
trapped miners. They were his friends--friends, all of them, 
and family in a way. Dale was always first man in, last man 
out. He had told me about the letters and the pictures that the 
families had put up at the mine. The one he remembered the most 
said, ``Please bring my daddy home.'' This gave Dale the 
courage and determination to go back into that hell hole.
    I want to know if there are rules and regulations made to 
protect the miners, then who is to be accountable for making 
sure these rules and regulations are being followed? Please at 
least have one person with enough backbone to say, ``No more.'' 
MSHA has one job: mine safety and health administration. It 
would have taken just one MSHA official or one official from 
the company doing his job to have saved my husband's life. 
Which one of them was not doing their job?
    Now explain something to me. How do you truthfully 
investigate yourself?
    Thank you.
    [The statement of Ms. Black follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you very much.
    And, again, our thanks and appreciation to all of the 
families who are here and to those of you who testified.
    If I might just ask a couple of questions, Mr. Marasco, you 
raised the issue that we have heard about, certainly read about 
in the press, and that is the question of how communications 
were relayed from either government officials or the company to 
members of the family and to members of the rescue teams. Could 
you elaborate on those?
    Mr. Marasco. First of all, from day one, we had a couple of 
meetings, first in the morning, then in the afternoon, and the 
way we feel how it should have been taken was when MSHA stepped 
in, we thought MSHA was going to be in charge. But every time 
we got down there, we had Mr. Murray and Mr. Moore always 
there, and they would be always representing what we did not 
want to hear. We felt like MSHA should have been there more 
instead of what we were hearing from Mr. Murray and Mr. Moore.
    I would like to see efforts to communicate openly and 
honestly with the families from the very beginning of any 
tragedy like this. The families deserve to be told the truth 
and to be able to count on the information that is given to be 
accurate. A way of regularly contacting the families, updating 
them and keeping them in the loop is essential to the families 
feeling informed and cared about.
    Chairman Miller. Those concerns have been raised from a 
number of fronts, and I just want to let you know that that is 
one of our concerns, too--at what point is MSHA supposed to 
take over the communications with the public and to provide 
some sort of an impartial in between families and the mining 
operation, the rescue operation.
    We have had this problem tragically at other mine 
disasters. So it appears that something has to be restated 
about how that is conducted because we all appreciate the 
difficulty and the urgency and the adrenaline after a mine 
accident, but there has to be some arbiter of what is accurate 
and not accurate so we can convey the best information to the 
families.
    Ms. Black, you mentioned that your husband was operating 
the miner, which was not really within his responsibility. Why 
was he doing that?
    I am sorry. You are----
    Ms. Black. It was too dangerous at the time, and he did not 
want to give that responsibility to someone else. He actually 
did not have to be right there, but he did not want----
    Chairman Miller. This was during the rescue?
    Ms. Black. Yes. Actually, on the 2 days that they had given 
him the day off, he had went back up there and the miner 
operator that were supposed to be running the miner could not 
do it because he was too scared, so my husband went in on his 
day off just to run the miner, because there was not anybody 
that would do it.
    Chairman Miller. So another worker felt the safety issue 
was such that he did not want to----
    Ms. Black. Yes. And Dale did not want to give that 
responsibility to someone else. He took it upon himself to do 
it. So that is why.
    Chairman Miller. Thank you.
    Ms. Phillips, how is Gage doing?
    Ms. Phillips. Okay.
    Chairman Miller. Gage, I told you I was going to ask you a 
question, Gage. So you are on TV now, so you can do whatever 
you want, you know.
    Gage, thank you very much for joining us this morning. We 
appreciate it.
    Sorry about your pop.
    Mr. Andrews?
    Oh, senior----
    Mr. Andrews. Yes.
    Chairman Miller. I am sorry.
    Mr. McKeon?
    Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman.
    I know that the words ``we are sorry'' are incredibly 
hollow, and they provide little comfort to the feelings that 
the families have here today. But we are sorry that so much of 
your government has let you down and put you in a position 
where you are facing a tragedy in your families for which you 
have been given no explanation and, frankly, very little hope 
that you will get one. And it is our job to try to fix that and 
we thank you for giving us the chance to do so.
    It is my understanding that on June 3 of this year, the 
operators of the Crandall Canyon Mine submitted a plan to 
engage in something called retreat mining at the mine. Now I 
know almost nothing about this, but from what I read, that is a 
pretty risky practice, a pretty dangerous practice, and on June 
15th, 12 days later, this plan was approved by the mining 
regulators, by MSHA. Do you all think that 12 days is long 
enough to take a careful look at something that risky? Does 
anybody care to answer that?
    Mr. Allred?
    Mr. Allred. Mr. Andrews?
    Mr. Andrews. Yes?
    Mr. Allred. Absolutely not, especially in a situation where 
in this particular mine, there were not enough barriers left 
and there was not enough support because the rest of the mine 
had all been longwalled out or pillared out, retreat mining. 
Longwall is retreat mining, and pillar--what they call a pillar 
section--is also retreat mining. I have looked at them maps, I 
have been a miner for 27 years, and I just shook my head 
because I could just tell right off that there was absolutely 
nothing there to hold that mountain up, but yet they was 
pulling pillars. They----
    Mr. Andrews. Mr. Allred, how long do you think it would 
take a careful, qualified person to make a competent judgment 
as to whether that plan was the right thing to do or not?
    Mr. Allred. I would say at lest 30 days. At least.
    Mr. Andrews. Was there any public notice that you are aware 
of that this plan was about to go forward so you could come in 
and testify about it or give your opinion?
    Mr. Allred. Absolutely not.
    Mr. Andrews. It is my understanding also that this plan had 
four phases. The first two, I believe, had to do with the north 
side of the mountain. The second two had to do with the south 
side of the mountain. If I am not mistaken, during the 
implementation of the retreat mining plan on the north side of 
the mountain, there were several bumps that occurred which 
caused the process to stop. Is that correct?
    Mr. Allred. That is correct. In March of 2007, on the north 
where you are talking about, it is my understanding that they 
were retreat mining and it actually bounced so hard, it ran 
them out.
    Mr. Andrews. Based on your experience, do you think that 
the experience on the north side of the mountain is something 
that the regulatory agency should have taken into account 
before approving the plan with respect to the south side of the 
mountain?
    Mr. Allred. Absolutely.
    Mr. Andrews. Did they take it into account as far as you 
know?
    Mr. Allred. As far as I know, no.
    Mr. Andrews. Did anybody ever ask the people who worked 
there for their input or their observations about the facts 
underneath that mountain?
    Mr. Allred. I have never worked at that mine, Mr. Andrews. 
I have no idea.
    Mr. Andrews. Does anybody know from the families that are 
here? Were any of the people that actually went into that mine 
every day ever asked about what they thought the consequences 
would be of retreat mining on the south side of the mountain?
    Not at all.
    I would suggest that our work needs to begin in two places. 
The first is to get you straight accurate answers as to what is 
and was going on from the officials who were responsible for 
that, and the second is to get busy writing and enforcing laws 
so this does not happen to anybody else, so the next time there 
is a plan that is this risky and this difficult that there is a 
competent review process over a reasonable period of time and 
that people who know the most about it, who are the ones 
actually inside the mountain every day in the mine, are asked 
about it so they can speak freely without fear of any 
retribution as to what they say.
    I, again, thank you for giving us the chance to do 
something in response to that, and I could frankly hope that 
our actions will be a fitting memorial to those that you have 
loved and lost.
    I also want to say to the rescue families the conduct of 
your loved ones is entirely characteristic of rescue workers 
around this country. We thank you for what they did.
    I would yield back.
    Chairman Miller. Mr. Sanchez?
    Mr. Sanchez. This plan was reviewed and approved by a 
graduate student. That is what we were told yesterday at our 
meeting from MSHA. So it was not really reviewed by a higher 
MSHA specialist.
    Chairman Miller. I saw that. I saw that report in the news, 
and I do not know if that is turned out to be completely 
accurate or not. I know there was a review apparently by a 
graduate student, but there may have been further review, and 
we do not know the accuracy of that yet, but we will----
    Mr. Andrews. Mr. Chairman, if I may, is that one of the 
documents that you requested in late August, the nature of----
    Chairman Miller. I do not know whether that specifically 
is, but, obviously, the review process and the permit process 
for this is central to the investigation on how this retreat 
mining went forward.
    Let me just say I was remiss in not introducing the other 
family members at the table who did not testify to us, and that 
is:
    Nelda Erickson, who is the wife of Don Erickson. She is 
here today on behalf of her family. And Ms. Erickson's 
daughter, Amanda, is here with her today.
    And Kristen Kimber is here with us today on behalf of 
Brandon Kimber and their three children, Bryton, Paxton and 
Peyton.
    And Jose Luis Payan is a coal miner who had been working at 
the Crandall Mine at the time his brother Juan Carlos' death, 
and Mr. Payan is here on behalf of Juan Carlos' family.
    And Robert Jensen is on behalf of his father, Gary Jensen, 
and he is accompanied by his mother, Lola, and sister, Haley. I 
wanted to say that Mr. Jensen's father was one of the rescue 
workers. Brandon Kimber was one of the rescue workers, also, 
that was killed in that effort.
    Mr. Wilson?
    Mr. Wilson. Thank you, Mr. Chairman.
    In lieu of my asking questions, I would just like to thank 
the family members for being here today, your courage, your 
outspokenness, and I know that I look forward to working 
together with all sides to try to avoid such tragedies in the 
future.
    Again, I want you to be aware that when this occurred, 
indeed, your loved ones, your family members have been in the 
thoughts and prayers of all Americans, and I would like to join 
with Mr. Marasco, may God bless all miners and their families.
    Chairman Miller. Thank you.
    Mr. Scott?
    Mr. Scott. Thank, Mr. Chairman.
    I would like to thank all of our witnesses.
    Your words remind us of how important our work is to try to 
avoid these tragedies from inflicting the same kind of pain 
that you have articulated today on others, and so I thank each 
and every one of you for coming today.
    I just had a couple of questions. One, on a day-by-day 
basis on communications, what role did MSHA play?
    Mr. Marasco. MSHA was there, but they were more hesitant. 
Like perhaps Mr. Stickler, he was always there all the time. 
Mr. Murray or Mr. Moore would always come in and represent what 
was actually being said, and Mr. Stickler would just add to, or 
if they could not answer any questions so poorly. I would 
suggest, I would say if it were not for the community, if it 
were not for the families--I mean, we were getting more of our 
information on the outside than on the inside.
    Mr. Scott. And, Mr. Allred, you mentioned the voice of 
miners in safety issues. You have suggested there is a 
difference between union mines and nonunion mines. Could you 
elaborate on that?
    Mr. Allred. Yes. Like I say, I have been a union miner all 
my life, and I have worked in a nonunion mine, but I have heard 
a lot of horror stories from nonunion workers, non-UMWA workers 
in the coal mine.
    I think some sort of system needs to be implemented, 
whether it be a nonunion mine or a union mine, that the 
nonunion mine people have a say as to when it comes to safety. 
There is strength in numbers, and when it comes to safety, 
there is definitely strength in safety, and it is just my 
opinion that there have been nonunion workers who have brought 
up safety issues. No, it is not an opinion. It is a fact 
because I heard it personally from a gentleman that worked at a 
nonunion mine.
    His coworkers were afraid to say anything about safety 
because they were afraid of losing their jobs, especially the 
younger guys, you know, the new hands that did not really have 
a whole lot of experience. They were not trained. In my 
opinion, they were not trained enough on safety, and there are 
not enough safety aspects and committees in nonunion mines to 
make them safe. They are just sitting there. The gun is pointed 
right at their head. They are playing Russian roulette, in my 
opinion.
    Mr. Scott. Thank you.
    And I want to thank each and every one of you for your 
testimony.
    Thank you, Mr. Chairman.
    Chairman Miller. Thank you.
    Mr. Platts?
    Mr. Platts. Thank you, Mr. Chairman.
    I want to certainly commend you and the committee for 
continuing the oversight of the issue of mine safety and the 
importance of learning from this tragedy.
    I do not have a question for any of the family members, but 
do appreciate the opportunity to add my words of sympathy to 
each of you and your loved ones, and having lost a loved one in 
this tragedy, and to assure you that one of the ways that your 
loved ones will continue to serve their fellow miners is 
through what we learn from the investigations of this tragedy, 
and that we can then take that information and better ensure 
the safety of all miners throughout our country in the years 
ahead.
    And your courage in coming here today to be able to talk 
about your families' loss, that personal loss, and your efforts 
here today will ensure public good comes from this. So I thank 
you for being here today.
    Thank you, Mr. Chairman.
    Chairman Miller. I thank the gentleman.
    Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    And I, too, want to thank the families for coming here 
today to tell us about the brave miners and rescuers who 
perished at Crandall Canyon. And thank you for sharing your 
concerns about this terrible accident.
    I was thinking while I was watching you and listening to 
you, you are looking at us and thinking, ``Well, they are all 
nice-looking faces up here. Are they just feeling bad for us, 
or are they really going to do something?''
    I mean, I think that is a huge question that I would have 
in mind if I were you, and I want to tell you that since the 
2006 election, when we became the majority on this side and 
Chairman Miller became our chair, we started immediately in 
January--and I am the Chair of the Subcommittee on Workforce 
Protection--talking about and having hearings on mining issues. 
We know how important this is, and we are taking it seriously.
    One of my major concerns is: How do workers and their 
families communicate the problems that they see up front before 
the problem becomes an accident? So I have put together 
legislation, whistleblower legislation, because I do not think 
it should be the risk to an individual's job if they can call 
to the attention of the operators and to MSHA that there is a 
serious problem.
    So, any of you would like to tell us where you think, you 
know, in the scheme of things, if it had been more open, if it 
had been safer to talk freely, could your loved one have 
prevented--if they had been heard, could we have prevented a 
lot of this? I mean, I heard you say it.
    Ms. Black, do you want to repeat anything you were----
    Ms. Black. I honestly believe if they would have listened 
to some of the other men, I think that it all could have been 
prevented from the very beginning.
    Ms. Woolsey. And did they even have the ability to 
communicate their concerns?
    Ms. Black. Well----
    Ms. Woolsey. I mean, other than they can talk, yeah, sure, 
but was there an avenue to do this?
    Ms. Black. Not really. I think they could express their 
opinion, but I do not think that it was at all being heard. 
Some of the men got in trouble if they did, from what I hear.
    Ms. Woolsey. And what would the trouble be?
    Ms. Black. Move to a different shift.
    Ms. Woolsey. Punished?
    Ms. Black. In a way.
    Ms. Woolsey. Blacklisted?
    Ms. Black. I do not know about that, but I know they could 
be moved to a graveyard shift that nobody wanted.
    Mr. Allred. I was told by several people--maybe it might 
not have been firsthand. It could have been secondhand--that 
particularly at Murray operations that they were told to do 
their job whether they like it or not and were told that if 
they talked to any of their family members about what is going 
on at these operations that they would be reprimanded.
    I was also told that he held a meeting with a large group 
of his employees, and he said that, ``You guys are nothing to 
me except a brass tag,'' and that is what they used to check in 
and check out of the mine with, is a little brass tag, and that 
is what I was told.
    Ms. Woolsey. Well, that is unacceptable, and we are going 
to make it safer for all of you to speak out.
    Thank you.
    Chairman Miller. Thank you.
    Ms. Kimber, did you want to add something to this? I did 
not know if you wanted to add something.
    Ms. Kimber. I just feel that there was a lot of warning 
with this mishap. On March 2, they had a reasonable bounce, and 
things were not looked into. They were just brushed aside, and 
they were told to go mining, and so I feel that there was a lot 
this mountain was telling these people, that this is not right 
and it is wrong, and nobody listened, until we sat before you 
today.
    Chairman Miller. Thank you.
    Mr. Bishop, any questions? No questions?
    Mr. Bishop of Utah. Yes, Mr. Chairman.
    Chairman Miller. Oh, this Mr. Bishop.
    Mr. Bishop of Utah. Oh, I am sorry. I will wait.
    Chairman Miller. Mr. Yarmuth?
    Mr. Bishop of Utah. Mr. Chairman, thank you for allowing 
me.
    For those of you who are, I appreciate your attendance here 
today coming back and especially the visuals, the pictures that 
you have in front, because it gives a real face to the 
individuals who have given their all in this particular 
endeavor, and I appreciate that very much.
    You have raised questions which need answers. This is one 
of eight different entities that are looking at something, and 
I am sure that this committee will not be satisfied until there 
are answers to the questions that have been raised, and I 
appreciate you for doing that.
    Mr. Matheson is here, and he offered a resolution in a 
bipartisan way, and I appreciated the tone and the tenor of his 
resolution that expresses our feeling of condolences for your 
personal losses and what that actually means to you. I am 
firmly convinced that we will all one day be reunited, and as 
much as I understand that intellectually, deep down inside in 
your heart, for those of us who are left behind, it is a 
difficult process to wait for that time to come. But it will 
come in some way.
    Those of you who had people who worked in the mines, they 
showed courage every day, and those who went to rescue were 
heroes in every sense of the word. I am also grateful for Mrs. 
Jensen to be here. I realize that your loved one that was lost 
was an MSHA worker who was actually part of the rescue effort, 
and I appreciate all of you for being here and all of you for 
telling a story that is extremely significant and for raising 
questions for which we will want some answers.
    We do want to let you know that we feel the pain that you 
are going through and wish to offer those condolences. It may 
not bring anyone back, but we do want to thank you for making 
this a very personal and very real situation here today.
    Thank you for your attention.
    Thank you, Mr. Chairman.
    Chairman Miller. Mr. Yarmuth?
    Mr. Yarmuth. Thank you, Mr. Chairman.
    I also would like to offer my deepest sympathies to all of 
you. This is the third time within the first 9 months of 
serving in Congress, we have heard from the victims of there 
different mining disasters, and that seems to me to be 
something we want to stop immediately, one of them including 
some disaster from my State of Kentucky.
    I just want to say one thing to you and, also, to those who 
may be listening, and that is that we have a lot of people 
coming to Congress, coal-mine operators, the mining industry, 
asking us for incentives and other actions that would promote 
the use of coal as part of our energy program, and I, as one 
member of Congress, say it is going to be very difficult for me 
to support any support for the mining industry until they prove 
to me and to the Congress that they value the lives of the 
people who get the coal out of the ground more than they value 
the coal.
    So, again, thank you for being here. Your message is deeply 
compelling, and I want you to know that I, along with Chairman 
Miller and Ranking Member McKeon, will do everything I can to 
make sure that not only we do everything we can to make sure 
these incidents do not recur, but that we hold MSHA 
accountable.
    I think most of us who were elected in 2006 were elected 
because the people realized that our system had gotten out of 
balance and Congress needed to reassert itself in order to hold 
the executive branch accountable, and when an entity of the 
federal government does not do what it is supposed to do, does 
not implement the laws which are passed by the Congress, we 
need to step up and make sure they do that. So I commit to you 
that I will pursue that with all my energies, as I know 
Chairman Miller will.
    Once again, thank you for appearing.
    I yield back.
    Chairman Miller. Thank you.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    Like my colleague, Mr. Yarmuth, I am new here. I have only 
been here for 9 months, but, again, I have seen three of these 
hearings now, and I cannot imagine the pain that you are all 
going through. I see the pictures, such wonderful people and 
their families.
    You know, at one of the hearings we had--and it was 
repeated today--the miners were being told what they are 
supposed to do. One hearing we had regarding the other mine 
accident was where the foreman told the miner, ``Get down there 
and get that coal or else,'' and I would submit that the people 
that did this, they should have been the one down there trying 
to pull that coal out if they thought it was so safe to get.
    I just am beyond the point of frustrated, I am angry, and I 
want to tell you all that I agree with what my colleague, Mr. 
Andrews, said about the government letting you down. I wonder 
how many more of these hearings we are going to have to have 
before we enact legislation that puts MSHA on notice that they 
are supposed to be protecting the miners and their families.
    There is no excuse for this. None. If that safety thing 
said 12 days when you need at least 30, if somebody is saying 
that we value your life as much as the tag that you wear when 
you go into that mine, you know what have we become as a nation 
and what have we become as an industry? I will tell you this: 
It is great to have the United Mine Workers. I do not know what 
we would do without them in terms of some of the safety things 
that they have been trying to do.
    But here you cannot get information from the people that 
own the mine. They do not want to talk to you. You have people 
I have been hearing today that they did not have somebody that 
could even speak Spanish to communicate to those families for 2 
days. You know, what were they supposed to do?
    This is appalling treatment, that you have a loss and then 
they kick you while you are down. So I just want to say to all 
of you--and then I just have one quick question--that we may be 
new here, John and myself and other members, but we have a 
great chairman here. We are going to get to the bottom not just 
to this, but we will get to a day where people can go to work 
in a mine and do it safe.
    It is hard, back-breaking work to do, and we have a 
responsibility to make sure that people have a chance to go to 
work and come home to their families. Anything short of that is 
really shame on us, and we will do everything we can--I promise 
you I will--to make sure that this does not happen again.
    I would just like to know maybe from you--I know our time 
is limited--what would you like to say to us as members of 
Congress--I know. I am sorry, Mr. Chairman--to see what you 
have gone through, that we could change to make sure this does 
not happen again?
    Chairman Miller. A quick response to that?
    Mr. Allred. Thank you. Safety, safety, safety. I mean, I 
cannot stress it enough.
    Again, I will say I was a UMWA worker for 27 years, and you 
would not believe the safety concerns. Anybody, any individual, 
no matter who he is, what it is about, if he has a concern 
about it, by golly, they sit down and have a talk about it, and 
it is decided before people are allowed to go into that area, 
and the pre-shifting just blows me away, the difference of the 
pre-shift of the union mind and the pre-shift of a nonunion 
mine, and if you guys get a chance to look at the books, which 
I hope you do, that will tell a story in itself.
    Chairman Miller. Thank you.
    Mr. Matheson?
    Mr. Matheson. Well, first, Mr. Chairman and Ranking Member 
McKeon, thanks for allowing me to participate in the committee 
hearing today. You know, there is a great national heritage 
about coal-mining families, and I think it is exceptionally 
well represented by this panel of witnesses.
    I think it is wholly appropriate, Mr. Chairman, that for 
your first hearing with respect to the Crandall Canyon disaster 
that you have the families as the lead-off panel because I 
think as we think through all the public policy issues and do 
all the investigations, we need to remember this is about real 
people, and it is people who work hard every day and who work 
hard to allow a lot of us to have a great quality of life in 
this country, and that is something we should never lose sight 
of.
    I have had the chance in the past to see some of these 
family members, and I want to thank them all for taking the 
time to come here to Washington today, and I think the 
testimony of the five family members was remarkable in how it 
laid out to me the vast majority of the issues that it is up to 
Congress, I think, to take a look at and investigate.
    I think there are questions about the way communications 
occurred after the disaster between the families and the mine 
operator and MSHA. There are questions about the approval of 
the mine plan to begin with. There are questions about when 
workers had concerns about safety that they did not have an 
avenue and an outlet in which to express those concerns and see 
legitimate actions to mitigate those risks. I think that this 
panel of witnesses has done a remarkable job in laying out 
those issues.
    One issue I would like to include in that respect is that I 
know while we have not found six miners, I do not want to give 
up on them. I hope that some day that the families are going to 
get answers to a lot of questions, but, in addition to that, 
the families are going to have a chance to have their loved 
ones in a resting place of their own choosing, and that is 
something I think we should keep in mind as the focus of this 
committee as well.
    I did not really have a series of questions to ask this 
panel, Mr. Chairman, but I want to thank them for their genuine 
honesty, and I want to thank them for taking time to come here 
today, and I think we are all honored by their presence.
    I will yield back my time.
    Chairman Miller. Thank you very much.
    We are in the middle of a vote, and I am going to try to 
recognize Mr. Payne and Ms. Shea-Porter before we leave for 
that vote. We will return. Are there members who want to ask 
questions when we return? We will see if we can squeeze you in.
    Mr. Payne?
    Mr. Payne. Very quickly, I, too, express my condolences to 
the family.
    A quick question: Do you think that if there was some sort 
of more reliable tracking device, some way that miners could 
have--I know you are deep down and all that, and I am not a 
technical person, but it seems that there ought to be some 
better way than doing it like they did it 100 years ago. I 
mean, we can put someone on the moon and on the way to other 
planets, and we cannot seem to locate a miner. Does anyone have 
any answer to that?
    Mr. Allred. I totally agree with you, and I have heard the 
technology is out there and it is being used in other 
countries. Why can't we have it here? I have heard there is a 
similar two-way radio type thing back east--or out here--
someplace. I am not sure where it was. Where is it? In Alabama? 
Excuse me. They had a two-way radios that they could 
communicate and it was a very deep mine. It was 2,300, 2,400 
feet deep, and it was a shaft mine. So I do not understand 
either why we cannot get better communications and keep better 
track of each person that is underground.
    Chairman Miller. That is a continued effort of this 
committee, to push that. We tried to push it in the previous 
legislation and were not as successful as I thought we should 
be, and we will be dealing with that later this month.
    Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you.
    I have sat here for 9 months. You are not the first panel, 
I am sorry to tell you. I have looked at the faces before, and 
I recognize the loss, and I am very, very sorry. The role of 
the federal government is to protect people who work for this 
country every day, and I am very sorry that that was not done. 
It also reminds me of why we have unions, why working men and 
women came together to protect themselves and each other from 
these kinds of problems.
    So I was just standing here saying I am sorry for the 
failures of many, and while they sound like empty words, we are 
here trying to make a difference for each one of you, and thank 
you for your courage to be here and also for your relative's 
courage to go down there each day and then to go down and find 
their brothers.
    So thank you.
    Chairman Miller. Thank you.
    Mr. Sarbanes?
    Mr. Sarbanes. Thank you, Mr. Chairman.
    I want to express also my deepest condolences to you.
    During the testimony, I was just thinking of all the loved 
ones that I look forward to seeing at the end of the day and 
trying to imagine what it is like to come home and not see 
somebody.
    I just want to quickly thank you, Mr. Allred, for your 
testimony and particularly highlight where you said that you 
initially butted heads with MSHA, you did not want that 
interference, but that you came around because you saw the 
safety that it could provide you.
    I just want to reaffirm to all of you that MSHA belongs to 
you. It is not our agency. It is your agency. And the fact that 
you converted to supporting what it tries to do and then in the 
end see instances like this where it fails to do what it is 
supposed to do, that is a cruel trick. That is the cruelest 
trick of all. And our job is to make sure that we return that 
agency to you.
    So thank you again for your testimony.
    I yield back.
    Ms. Clarke. I know I have to do this very quickly, Mr. 
Chairman, but you may recall that I was on medical leave when 
this incident actually occurred, and during that time, I had 
bed rest, and one of the things that I did was look very 
closely at this incident as it unfolded, and having sat on this 
committee and having had the other hearings as a freshman, I 
was riveted to it. I was praying every day as, you know, it 
came across the air waves.
    I want to thank you for your courage and your tenacity in 
the face of such loss. I personally felt no closure and no 
accountability, so I want to commend the chairman for bringing 
us here today that we can look at each other and know that 
there are human beings across this nation that are there with 
you, and I feel empowered today by your presence that we will 
fight to make sure that in the future this will never happen 
for another miner, that we will continue to fight this battle 
and move it forward because each and every one of you deserves 
it.
    We deserve it as part of our common humanity, and I just 
want to say to you Lynn Woolsey brought up a point that I am 
concerned about, and that is retaliation within the industry. 
Stay bold. Stay courageous. It is going to be your courage that 
is going to make it possible for the next generation working 
with the minors----
    Chairman Miller. I thank the gentlewoman. We have to go to 
vote.
    Ms. Clarke. Yes.
    Chairman Miller. Thank you very much.
    Ms. Clarke. Thank you.
    Thank you, Mr. Chairman.
    Chairman Miller. I want to thank this panel. People were 
leaving, as you note, to vote, and the clock has run out on us. 
I am getting too old to make this sprint, but I am going to try 
it. But I want to thank you very, very much for your testimony. 
I think you see the impact. Too often, you know, we are in a 
national debate about energy.
    Hey, Gage. How are you?
    We are in a national debate about energy, and sometimes we 
disconnect the people that provide that, and I think it is 
important that you were here today to put a face not only on 
your family members, but the nature of this industry and the 
diligence that is required by those responsible for the 
regulation of the industry.
    We will return in about, hopefully, 20 to 25 minutes, and 
we will begin with the second panel. So, again, thank you very 
much.
    Gage, you have been a great witness. I should have sworn 
you in, though, if I knew you were going to say all of that. I 
should have sworn you.
    But thank you for coming.
    [Recess.]
    Chairman Miller. On this panel, we will hear from Mr. Wayne 
Holland who is currently the international staff representative 
for the United Steelworkers District 12 in Salt Lake City. Mr. 
Holland is a third-generation copper miner and represents over 
1,300 hard rock copper miners. He has been involved in MSHA 
training, both worker and trainer of miners' representatives, 
and joint safety and health committees in the copper mining 
industry.
    Mr. Bruce Watzman is the vice president of safety, health 
and human resources for the National Mining Association. Mr. 
Watzman holds a master's degree in environmental health and 
management and an undergraduate degree in economics and 
psychology.
    Mr. Cecil Roberts is the president of the United Mine 
Workers. Mr. Roberts is a sixth-generation coal miner and is a 
graduate of West Virginia Technical College in 1987.
    And Jon Huntsman, Jr., is the governor of Utah and was 
elected in 2004 and currently serves on the executive committee 
of the National Governors' Association, and is vice chair of 
the Western Governors' Association. Governor Huntsman earned 
his bachelor's degree at the University of Pennsylvania.
    Governor, welcome to the committee, and we are going to 
begin with you.

              STATEMENT OF HON. JON HUNTSMAN, JR.,
                    GOVERNOR, STATE OF UTAH

    Governor Huntsman. Mr. Chairman and members of the 
committee, thank you for the opportunity to appear before this 
committee. I want to thank Representative Matheson and 
Representative Bishop for representing our state well.
    I am not sure there is a whole lot that I can say above and 
beyond that which has already been spoken by Steve, Wendy, 
Mike, Sheila and Cesar. They are very representative of some 
wonderful families who have been through a difficult set of 
circumstances, the likes of which most of us will never 
understand, a period of uncertainty, weeks of excruciating--
and, I think, possibly needless uncertainty--regarding their 
loved ones, and, as you can tell, that pain continues not only 
for them, but the communities in which they reside.
    Now I will tell you that coal has been an important part of 
Utah's economy for decades and will continue to be going into 
the future. As such, I think it is incumbent upon us to learn 
what might be done differently in the future to protect the 
safety and welfare of these brave coal miners.
    Our miners know the inherent dangers associated with their 
line of work, but have generally been willing to accept some 
risk in order to be employed at the mines. Many have told me 
that they would like to make mines safer, but are concerned 
that if the mines become overly regulated, the owners will 
close the doors.
    Therefore, we must all at the state and federal levels 
strike an appropriate balance, first and foremost, between 
protecting health and safety of workers and the appropriate 
regulation of the mining industry.
    The federal government has regulated mine safety in Utah 
since 1977, upon the creation of the Mine Safety and Health 
Administration. Following that federal action, the state's role 
was reduced by state legislative actions over the next several 
years. Since 1987, state involvement in miner safety has been 
limited to miner certification.
    This most recent horrific accident at Crandall Canyon has 
been an extremely painful reminder that Utah must critically 
assess its role in ensuring mine safety going forward. To this 
end, I have created the Utah Mine Safety Commission, chaired by 
Scott Matheson, Jr., former dean of the University of Utah Law 
School and former United States attorney and good friend.
    Other commission members include a former United States 
senator; the mayor of Huntington, in which the incident took 
place; the mayor of Price, an adjacent community; a state 
senator; a state representative; Dennis O'Dell, head of safety 
and health with the United Mine Workers; and David Litvin, who 
is the Utah Mine Association president.
    The commission is charged with the following: Number one, 
to review the role of the State of Utah in mine safety 
generally, including, one, the safety inspection process; two, 
accident prevention; and three, accident response;
    Number two, to review the Crandall Canyon Mine disaster and 
the state's role in mine safety leading up to the accident;
    Number three, examine how the state can assure itself that 
MSHA and private mining companies are doing everything 
reasonably possible to ensure the safety of Utah miners, their 
families and their communities;
    Fourth and finally, to make appropriate policy 
recommendations regarding how the state should promote miner 
safety and accident prevention going forward.
    This commission is a panel of extraordinary public 
servants, and, in order for them to be able to serve Utahns 
well, they need to work closely and collaboratively with MSHA 
and its investigation team. It is important for them to have 
real-time access to information being gathered in order to 
implement needed changes at the state level.
    To accomplish this, I call upon the U.S. Department of 
Labor, through MSHA, to begin providing logical points of 
connection with our Utah Mine Safety Commission that will allow 
a useful flow of information from the ongoing federal 
investigation. Today, such a connection does not exist, and the 
risk of uneven outcomes is very real.
    In summary, the State of Utah is concerned that a mine 
collapse like that which occurred at Crandall Canyon never 
happen again in Utah or anywhere else and, if it should occur, 
that we have in place protocols, clearly defined authority, and 
equipment and technology that will protect and save miners' 
lives, as well as expedite successful recovery efforts.
    Thank you so very much for having me.
    [The statement of Governor Huntsman follows:]

  Prepared Statement of Hon. Jon M. Huntsman, Jr., Governor, State of 
                                  Utah

    Mr. Chairman and Members of the Committee: Thank you for inviting 
me to testify this morning about a tragic event in our state's 
history--the collapse of the mine at Crandall Canyon--and the 
importance of mine safety to the citizens of our state and this great 
nation. It is an honor for me to be here today alongside members of 
these wonderful families who endured weeks of excruciating, and 
possibly needless, uncertainty regarding their loved ones.
    On August 6, 2007, my office received word of the mine collapse. 
Over the next several weeks many unsuccessful attempts were made to 
rescue those six miners trapped inside. During one of the many heroic 
rescue attempts, three miners were killed and several others injured. 
The families of all the miners who died and were injured deserve to 
have a full understanding of the circumstances that led to the deaths 
of their loved ones.
    Coal has been an important part of Utah's economy for decades and 
will continue to be for generations to come. As such, it is incumbent 
upon us to learn what might be done differently in the future to 
protect the safety and welfare of our brave coal miners. Our miners 
know the inherent danger associated with their line of work, but have 
generally been willing to accept some risk in order to be employed at 
the mines. Many have told me that they would like to make the mines 
safer but are concerned that if the mines become overly regulated, the 
owners will close the doors. The mines are the economic base of many of 
these communities which would be devastated by such a closure. These 
communities are already struggling with not only the closure of the 
collapsed Crandall Canyon Mine, but also the subsequent temporary 
closure of the Tower Mine. Therefore, we must all, at the state and 
federal levels, strike the right balance between protecting the health 
and safety of our miners and appropriate regulation of the mining 
industry.
    The federal government has regulated mine safety in Utah since 
1977, upon the creation of the Mine Safety and Health Administration. 
Following that federal action, the state's role was reduced by state 
legislative actions over the next several years. Since 1987, state 
involvement in miner safety has been limited to miner certification. 
This most recent horrific accident at Crandall Canyon has been an 
extremely painful reminder that Utah must critically assess its role in 
ensuring mine safety. To this end, I have created the Utah Mine Safety 
Commission, chaired by Scott Matheson, Jr., former dean of the 
University of Utah Law School and former United States Attorney. The 
Commission members include former United States' Senator Jake Garn, 
Huntington Mayor Hilary Gordon, Price Mayor Joe Piccolo, State Senator 
Mike Dmitrich, State Representative Kay McIff, Dennis O'Dell, Safety 
and Health Director of the United Mine Workers of America, and David 
Litvin, Utah Mining Association President.
    The Commission is charged to:
    1. Review the role of the State of Utah in the area of mine safety, 
including the safety inspection process, accident prevention, and 
accident response;
    2. Review the Crandall Canyon Mine disaster and the State's role in 
mine safety leading up to the accident;
    3. Examine how the State can assure itself that MSHA and private 
mining companies are doing everything reasonably possible to ensure the 
safety of Utah miners, their families, and their communities;
    4. Make appropriate policy recommendations regarding how the state 
should promote mine safety and accident prevention.
    This Commission is a panel of extraordinary public servants. In 
order for them to be able to serve Utahns well, they need to work 
closely and collaboratively with MSHA and its investigation team. It's 
important for them to have real-time access to the information being 
gathered in order to implement needed changes at the state level. To 
accomplish this, I call upon the U.S. Department of Labor, through 
MSHA, to begin providing logical points of connection with our UMSC 
that will allow a useful flow of information from the ongoing federal 
investigation. Today, such a connection does not exist and the risk of 
uneven outcomes is very real.
    In summary, the State of Utah is concerned that a mine collapse 
like that which occurred at Crandall Canyon never happen again in Utah 
or anywhere else. And, if it should occur, that we have in place 
protocols and equipment that will protect and save miners' lives, as 
well as expedite successful recovery efforts.
    Thank you.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Holland?

STATEMENT OF WAYNE HOLLAND, INTERNATIONAL STAFF REPRESENTATIVE, 
                      UNITED STEELWORKERS

    Mr. Holland. Thank you, Mr. Chairman, and thank you, 
Congressman Matheson, for your leadership in representing the 
communities of Utah's coal country.
    And thank you, members of the committee, for providing an 
opportunity to offer my perspective on the tragedy at the 
Crandall Canyon Mine and to offer some comments on the urgent 
need to implement critical improvements to our nation's mine 
safety and health legislative protections.
    It is the hope of Utah miners, our families and our 
communities that Congress will act quickly and in bipartisan 
fashion to enact the required and vital protections that both 
Utah and American miners and their families deserve.
    We urge Congress to act at the federal level in the same 
bipartisan fashion that Utah Governor Jon Huntsman has 
demonstrated in Utah. The governor has appointed a 
distinguished and respected panel of citizens from a spectrum 
across our political life in Utah led by Scott Matheson, his 
Democratic opponent in the 2004 gubernatorial election. This 
approach has assured credibility and confidence that the 
ultimate results will be in the best interests of all 
concerned.
    However, Mr. Chairman, the need for action extends beyond 
our state. In every way, this is a national call for action. 
Today in our nation 225,000 Americans work to provide for our 
national needs in both underground and open pit mining 
facilities. In the past 21 months, 121 miners have died in the 
United States in mining facilities. This year alone, 24 miners 
have died in coal mines and 25 more have died in metal and 
nonmetal mines. We must act. Utah miners and American miners 
deserve better, and our government must act.
    It must act with clear intent to demonstrate our nation's 
deep respect and gratitude for the hard and courageous work 
that our miners provide. Their families and their communities 
deserve no less. We can provide it. As we meet today in our 
nation's capital, American miners receive less on-the-job 
protection than miners in Canada, Germany, Australia and even 
Turkey. We can and we must do better.
    The tragedies of August 6 and August 16 in Utah must not be 
forgotten. The loss of these nine courageous miners must always 
be remembered. Let them be honored by the miners throughout the 
nation today that went to work and by the next generation of 
miners by enacting legislation to provide the needed and vital 
protections they need on the job.
    Mr. Chairman, under your leadership, Congress enacted the 
MINER Act of 2006. Your frustration with the implementation on 
key provisions has been clear.
    On June 19 of 2006, of this last past year, you said, 
``Last year, we acted with urgency but too late. This year, it 
is our hope to enact needed legislation before the next tragedy 
occurs.'' Sixty-five days later, that tragedy occurred in Utah. 
Six miners were first lost, and three more 10 days later. Mr. 
Chairman, again, in your own words, the MINER Act of 2006 was, 
``intended only as a down payment on what was needed to clean 
up years of neglect, backsliding and complacency.''
    Your leadership and efforts to expedite implementation are 
to be commended. The miners in Utah and across our nation stand 
ready to assist you. Let the legacy of the nine courageous 
miners in Utah be safer workplaces for all miners. Let us also 
assure that the courageous Utah families who shared their 
tragic personal stories this morning return home to continue 
their difficult healing processes with some comfort that their 
government has responded to the great loss and that the future 
holds brighter days.
    Together, let us say never again will we wait to act, never 
again will we accept complacency, and, finally, never again 
will implementation be delayed until it is too late.
    Mr. Chairman, again, I thank you, and I welcome any 
questions you may have.
    [The statement of Mr. Holland follows:]

Prepared Statement of Wayne Holland, Utah Staff Representative, United 
                        Steelworkers of America

    Thank you Mr. Chairman, Congressman Matheson, and members of the 
committee for inviting me here today to offer my perspective on the 
tragedy at Crandall Canyon Mine.
    First let me say that every Utahn, and that includes myself as 
chair and the Democratic Party of Utah, should commend Gov. Jon 
Huntsman Jr. The governor's progressive bi-partisan approach is the 
approach I hope Congress will take. The governor's appointment of his 
Democratic opponent during the last election, Scott Matheson, one of 
Utah's most distinguished and respected citizens, to lead our state 
investigation has created confidence that the process will result in a 
constructive outcome.
    The tragedy of the initial collapse that killed six miners on Aug. 
6 was magnified when the mountain came down on their rescuers several 
days later. As someone who has been closely involved with attempts to 
hold mine owners accountable for worker safety for most of his adult 
life, I know that these events have significant and long-lasting impact 
on mining communities.
    The nation's miners employed in both underground and open-pit 
mining operations total about 225,000. In the past 21 months, 121 
miners have died in U.S. mining operations. This year alone, 24 miners 
have died in coal minees and 25 have died in metal/non-metal mines. Our 
government owes our nation's miners a great deal. A great deal more 
than the fact the Utah and American miners receive less on-the-job 
protection than miners in Germany, Canada, Australia, and, in some ways 
even, Turkey.
    It's been a tough summer. The people of Carbon and Emory counties 
just want to get back to the business of living: working at decent 
paying jobs, making sure their kids are OK in school, going to church, 
enjoying Utah's spectacular high-mountain country. They deserve to know 
that as they try to get on with their lives that their government will 
implement effective protections and assure aggressive enforcement.
    Mr. Chairman, you, your committee, and members of this and the 
previous Congress are to be congratulated for leadership in protecting 
our miners. You acted decisively in pushing through the MINER Act of 
2006.
    But in the immortal words of Yogi Berra, ``It seems like deja vu 
all over again.''
    Mr. Chairman, when you introduced the 2007 mine safety and health 
bills on June 19, you said the MINER Act of 2006 was ``intended only as 
a down payment on what was needed to clean up years of neglect and 
backsliding by this Administration and an industry that had become, by 
its own admission, overly complacent.''
    You said implementation had been slower than anticipated.
    You said ``Last year we acted with urgency but too late; this year, 
it is our hope to enact needed legislation before the next tragedy 
occurs.''
    Again, that was on June 19.
    Sixty-five days later, at 2:48 a.m., a mountain in Wasatch Plateau 
came down on six miners working a seam of coal about 2,000 feet below 
ground. Ten days later, at 6:39 p.m., nine rescuers were buried when 
the mountain came down again. Six made it out alive.
    Mr. Chairman, these men were heroes.
    Coal miners in Utah and their families understand the dangers of 
being inside an unstable mountain. They know the signals the mountain 
sends. The most recent had occurred just four days earlier. They know 
about the disaster in Alabama, for instance, in which 12 miners died 
September 2001 trying to get to one injured miner.
    They went inside anyway.
    Mr. Chairman, I am not a mining engineer. I do not know for a fact 
that Crandall Canyon Mine was too dangerous under the mining conditions 
employed by the operator and very questionable mining plan.
    I do not know that so-called ``retreat mining'' should never have 
been allowed.
    This is what I do know:
    I know that when I go back to Helper or Price, Huntington, Castle 
Dale or Orangeville I want to be able to walk down the street and if 
the widow, wife, or children of a miner comes up to me, I want to say, 
``never again. Those guys back in Washington are doing whatever they 
possibly can to make sure you won't have to go through the horror of 
last summer never, ever again.''
    I know that never again should the dedicated public servants of 
MSHA fear losing their jobs because they stand up to a mine owner with 
political connections and refuse to sacrifice worker safety.
    I know that never again should any administration be allowed to 
appoint a Secretary of Labor without the experience and background 
necessary to assure that America's working families get the protections 
and enforcement they deserve.
    Miners and their families don't want empty rhetoric.
    They demand that their representatives here in Washington examine 
life-saving and proven technologies--including wireless communication 
devices, safe haven chambers, and personal tracking devices--that have 
been widely used by underground miners all over the world.
    They demand MSHA have the enforcement authority to do its job, with 
miners and their families getting the uppermost consideration.
    Mr. Chairman, I cannot close with words more eloquent than those 
you chose in June: ``As we focus this year on how to address this 
country's energy problems, let us not forget to provide for the safety 
and health of the workers who provide the raw materials that power this 
country.''
    Mr. Chairman, I'd like to tell the people back in Emory and Carbon 
counties that Congress will not wait for any more miners to die before 
it acts.
    Thank you. I'd be happy to answer any questions.
                                 ______
                                 
    Chairman Miller. Thank you.
    Mr. Watzman?

STATEMENT OF BRUCE WATZMAN, VICE PRESIDENT, SAFETY, HEALTH AND 
          HUMAN RESOURCES, NATIONAL MINING ASSOCIATION

    Mr. Watzman. Thank you, Mr. Chairman.
    We appreciate the opportunity to appear before you to 
discuss the efforts to improve mine safety that has occurred 
since passage of the MINER Act of 2006 and the challenges that 
remain to realize our goal to return every miner home safely 
after every shift.
    The Crandall Canyon mine accident has affected our nation's 
entire mining community, and we mourn our fallen colleagues. We 
are determined to return to the path that existed for much of 
the past three decades when steady reductions in fatalities and 
serious injuries were achieved.
    As you know, the coal industry worked with Congress and 
others to pass the most sweeping mine safety reforms in more 
than three decades. The requirements recognize that good safety 
practices continually evolve based upon experience, technologic 
development, and that every underground coal mine presents a 
unique challenge.
    Since passage of the act, the industry has moved 
aggressively to identify technology that satisfies the law's 
requirements as quickly as possible. Our written submittal 
details some of the progress, but we recognize that more work 
needs to be done.
    The recent accident spotlighted our continuing challenge to 
develop reliable two-way devices that could help locate and 
communicate with miners trapped underground. Sending in a 
signal through rock deep underground is far more challenging 
than signaling through the air and has proven to be especially 
challenging in the mining environment.
    Despite these daunting technological challenges, the 
industry is not sitting idly by until a reliable system reaches 
functional capability under all circumstances. We continue to 
work with federal agencies to test and expedite the development 
of wireless ground-penetrating technologies. In the interim, we 
must have realistic expectations of what is achievable to drive 
industry practice.
    As we continue to work with our colleagues to develop the 
technologies to meet the MINER Act requirements, we are 
beginning to turn our sights to reestablish a safety culture of 
prevention throughout the industry. Work with recognized 
experts to develop a safety management system that encourages 
integration of safety into the entire suite of business 
management practices is underway.
    Our efforts are designed to formalize risk assessment and 
management practices, to join the science of safety with the 
culture of safety. This approach will provide for better 
identification of risks in each mine so that safety resources 
of operators and regulators can be allocated more efficiently 
and safety hazards managed more effectively.
    Mr. Chairman, in light of the changes that are underway and 
that will continue to be made to reach our mutually shared 
goal, we urge the committee to defer consideration of the two 
pending mine safety bills. We must not rush to judgment on the 
need for additional legislation because doing so will 
unnecessarily divert the industry's attentions to fully 
implement the MINER Act requirements. Importantly, this view is 
shared by 11 prominent members of the mining engineering 
academic community who have warned that now is not the right 
time to pursue the pending bills.
    The mining industry is easy to learn from our experience 
with implementing the MINER Act and with all who share our 
determination to safeguard our miners. Change is occurring for 
the better and will continue to do so until we reach our goal 
of returning each miner home safely every day.
    Thank you. I would be happy to answer any questions you 
have.
    [The statement of Mr. Watzman follows:]

Prepared Statement of Bruce Watzman, Vice President, Safety, Health and 
              Human Resources, National Mining Association

    Mr. Chairman, members of the Committee, I am Bruce Watzman, Vice 
President, Safety, Health and Human Resources for the National Mining 
Association. Thank you for providing us this opportunity to share our 
thoughts regarding the issues we face as we strive to meet the mandates 
of the Mine Improvement and New Emergency Response Act (MINER) Act of 
2006 and the challenges that remain as we strive to return each miner 
home safely to their families after each shift.
    Today I want to discuss three related issues: safety technology; 
safety culture and the path going forward to bring about further 
improvements in mine safety and health. But, before turning to the 
specific issues before the committee let me again express our sympathy 
to the families of the fallen miners at the Crandall Canyon mine. We 
mourn their losses and are determined to return to the path that 
existed for much of the past three decades, when steady reductions in 
fatalities and serious injuries were the rule. That is why we supported 
strong new mine safety legislation last year, established an 
independent commission to provide recommendations for new safety risk-
based systems and continue to partner with the National Institute for 
Occupational Safety and Health to develop and test new safety and 
communication technology.
    In 1977 Congress declared in the Mine Act that ``the first priority 
and concern of all in the coal or other mining industry must be the 
health and safety of its most precious resource--the miner.'' The 
mining industry strives to reflect this priority through performance. 
Indeed, the industry's commitment is reflected in thirty-five years of 
decreasing injuries and fatalities. And, while last year this steady 
progress was tragically interrupted by a series of accidents, 83 
percent of our nation's operating mines worked the entire year of 2006 
without a single lost-time accident. Nonetheless, recent events serve 
as a powerful reminder that we in the industry need to reinforce the 
``safety-first'' culture that produced the declining number of injuries 
and fatalities over the past three decades.
            MINER Act
    Last year, NMA supported passage of the most sweeping mine safety 
legislation in more than 30 years. The MINER Act, as implemented 
through Emergency Response Plans, recognizes the need for a forward-
looking risk assessment, that good safety practices continually evolve 
based upon experience and technological development, and that every 
underground coal mine presents a unique environment and what may work 
in one may not be effective or desirable in another.
    Since passage of the MINER Act the industry has moved aggressively 
to identify technologies that satisfy the law's requirements as quickly 
as possible. While more work needs to be done, the industry has made 
significant investments and progress. Briefly,
    <bullet> 100,000 additional self-contained self-rescuers (SCSRs) 
have been placed into service, with another 100,000 on back order.
    <bullet> All underground coal mines have submitted emergency 
response plans including plans to supply breathable air and other 
supplies to sustain miners trapped underground. Units to meet these 
requirements are being ordered and installed without the normal testing 
that a device such as these would normally receive.
    <bullet> All underground coal miners have received new training and 
will continue to receive quarterly training.
    <bullet> Underground coal mines have implemented procedures to 
track miners underground.
    <bullet> Existing communications systems have been hardened and 
redundant systems installed.
    <bullet> More than thirty-five new mine rescue teams have or will 
be added around the country.
    This progress is only the beginning of our continued commitment for 
reaching our desired goal to protect our nation's miners.
    The recent accident at Crandall Canyon spotlighted our continuing 
challenge to develop reliable two-way communication devices that could 
help locate and communicate with miners trapped underground. At a time 
when most Americans are well-connected with each other through cell 
phones, many wonder why miners cannot communicate from underground to 
the surface. Intuitively, we understand why: Sending a signal through 
rock deep underground is far more challenging than signaling through 
the air.
    Apart from these fundamental technical barriers to in-mine or 
through-the-earth signal propagation, explosions, fire and roof falls 
produce destructive forces that can damage or destroy system components 
and render the system inoperable. At present, there is simply no 
available single system that can withstand all potential scenarios 
while maintaining mine-wide communications.
    Despite these daunting technological challenges, the industry is 
not sitting idly by until a reliable system reaches acceptable 
functionality under all circumstances. Today one member of NMA, 
Alliance Coal, has developed one of several systems that use radio 
frequency identification (RFID) tags and bi-directional readers to 
track miner's movement throughout the mine, pre-event. This is an 
improvement over earlier systems and is considered state-of-the-art. 
Yet, it too is susceptible to damage by destructive forces that will 
affect its functionality. The system currently requires a connective 
through-the-mine fiber optic cable that is vulnerable to damage and 
could potentially render the system useless.
    NMA member companies recently conducted tests of communication 
technology being developed primarily for Department of Defense use. The 
results indicate that improved communication systems are possible. The 
Kutta system, a subterranean wireless communication system having the 
ability to couple onto and transmit radio signals using the existing 
metallic infrastructure in the mines, including metal core lifelines, 
phone cables, tracks, etc. holds great promise. Its ability to 
interface with a mine UHF leaky feeder communication system has the 
potential to integrate an analog and digital handheld multi-frequency 
radio and complementary repeaters to overcome traditional barriers to 
enhanced wireless communication.
    There are other improvements in communication that can be achieved. 
Our concern is not that additional communication requirements will be 
mandated, nor is it the cost of communication systems. Rather, it is 
that realistic expectations of what is technologically achievable drive 
whatever requirements become the industry practice. Working with 
researchers at the National Institute for Occupational Safety and 
Health (NIOSH) we continue to approach this issue through sound science 
and realistic timeframes for implementation.
    In sum, there is no silver bullet technology yet available. True 
``through-the-earth'' wireless technology does not yet exist. Until we 
overcome the technical barriers that preclude transmission of signals 
through the earth, the systems will require some form of underground 
backbone and infrastructure, which are susceptible to damage. 
Nevertheless, the perfect solution may still be beyond reach, we will 
not be deterred in the quest to find and deploy it.
Creating a culture of prevention
    We have so far commented on technical improvements and these are 
clearly important. But perhaps the most important element in improving 
safety is the relentless focus on ``safety culture''. For successful 
companies safety culture exists at every level of the organization. In 
those companies with outstanding safety performance safety is 
emphasized at every shift at the mines and is an integral part of the 
business model.
    In a recent speech to the Utah Mining Association, J. Brett Harvey, 
President and Chief Executive Officer of Consol Energy, Inc. stated 
this succinctly. Let me quote key passages from his speech:
    ``To achieve our goal, we will need to join the science of safety 
with a culture of safety.
    ``The science of safety is technology-driven. We use technology to 
help us monitor conditions, to provide early identification of problem 
areas, to improve communications between sites underground or between 
the underground and the surface, and to enhance the safety of 
equipment.
    ``By deploying technology to augment the efforts of our employees, 
we can minimize physical conditions in a mine as a source of accidents. 
We are great engineers, and we intend to engineer our mines so that the 
physical conditions in the mine are as predictable as those inside this 
room.
    ``The culture of safety, on the other hand, involves engaging the 
mind of every employee. We want to make safety their core value. You do 
that in many ways: with constant training regarding safe work 
practices, with regular discussion of safety issues--both at work and 
at home, and with programs that acknowledge and reward safe work 
practices and safety achievements.''
    Mr. Harvey's remarks reflect what so many in the industry have come 
to recognize, that safety must be a core value that ``trumps 
production, it trumps profits, it trumps all other rules, policies or 
procedures.'' These same views were captured by the Mine Safety 
Technology and Training Commission (MSTTC) in its December 2006 report, 
Improving Mine Safety Technology and Training: Establishing U.S. Global 
Leadership. In the section on prevention the Commission stated that:
    Prevention requires that systematic and comprehensive approaches be 
used to manage risks. Compliance is an important aspect of prevention, 
but it is more important to realize that it is only a starting point in 
a more comprehensive process of risk management.
    A critical action to ensure success of the process for any company 
is the creation of a ``culture of prevention'' that focuses all 
employees on the prevention of all accidents and injuries * * * In 
essence the process moves the organization from a culture of reaction 
to a culture of prevention. Rather than responding to an accident or 
injury that has occurred, the company proactively addresses perceived 
potential problem areas before they occur.
    To achieve these goals we will be working with recognized experts 
to develop a safety management system that encourages integration of 
safety into the entire suite of business management systems.
    Our efforts will build upon the strong leadership demonstrated last 
year by the industry through the establishment of the MSTTC as an 
independent body of safety experts charged with examining how advanced 
technology and training procedures can be more readily adapted for use 
in our mines. The commission provided a pro-active blueprint for 
achieving zero fatalities and zero serious injuries in U.S. underground 
coal mines and our actions going forward will further the adoption of 
the commission's blue-print.
    Risk assessment and management are well-established practices that 
are employed in many industrial settings. Our goal is to formalize this 
process for use throughout the mining industry so that we can identify, 
eliminate and manage conditions or practices that have the greatest 
potential to cause injury. In so doing we hope to develop a system that 
recognizes the MSTTC objective to foster an approach that is ``founded 
on the establishment of a value-based culture of prevention that 
focuses all employees on the prevention of all accidents and 
injuries.''
    Our objective is prevention of accidents, injuries and illnesses 
and reinforcing a culture of prevention. Decisions will be based upon 
sound science recognizing technologic limits, where they exist. By 
developing risk-based safety priorities we will identify and focus 
resources on conditions that most directly place miners in potential 
peril. Our goal is to foster industry-wide partnerships among coal 
companies and equipment and service supply providers for the research, 
development and commercialization of new practices and technology that 
will raise the performance bar industry-wide.
The Path Going Forward--A Misdirected Legislative Approach
    Some believe we must do something quickly with mining legislation 
otherwise nothing will change. Mr. Chairman let us assure you that 
things are changing * * * they are changing for the better * * * and 
they will continue to change until we reach our mutually shared goal of 
ensuring that our nation's miners work in the safest possible workplace 
and return home safely everyday. This committee and the public must not 
rush to judgment on the necessity for additional legislation. Doing so 
will unnecessarily divert attention and resources away from the 
critical task of fulfilling the mandates of the MINER Act.
    To be forced to respond to an additional layer of statutory 
requirements at this time will undermine the progress that has been 
made on miner training and other vital objectives of the act. It is 
premature to consider imposing further legislation before the full 
impact of the original MINER Act can be comprehensively evaluated.
    We are not alone in this assessment. Prominent members of the 
mining engineering academic community have expressed grave reservations 
about distracting the mining community from the task of fulfilling the 
directives of the MINER Act. In a July 25 to the chairman and the 
ranking member of the committee, these experts warned against 
``dramatically disrupting the very core of the industry'' with 
additional provisions at this time.
    Accompanying our statement is a critique of a number of provisions 
of the pending legislation (HR 2768 and HR 2769) that we believe are 
unnecessary and possibly even counterproductive to our shared mission 
of improving mining safety.
    Following are the major flaws of the mine safety bills that have 
been introduced as well as what is missing from the discussion.
    <bullet> The addition of new regulatory requirements will create 
confusion and threaten continued progress on implementing the safety 
improvements required by the MINER Act.
    <bullet> The S-MINER Act circumvents notice and comment rulemaking, 
thereby preventing the development of sound safety and health standards 
and policies.
    <bullet> The S-MINER Act changes the roles and responsibilities of 
MSHA and NIOSH in a number of key respects. It also introduces into the 
safety process organizations unfamiliar with the mining industry
    <bullet> The S-MINER Act will result in an administrative nightmare 
for MSHA and the industry.
    <bullet> The S-MINER Act outlaws the use of belt air to ventilate 
the face at underground mines. As a result, it would severely diminish 
safety by prohibiting the use of a procedure critical to the safe 
operation of a number of underground mines.
    <bullet> The additional penalty provisions included in the S-MINER 
Act are draconian, unnecessary and unfair.
    <bullet> The S-MINER Act's one-size-fits-all approach fails to 
recognize that mines are unique. If enacted, this bill will result in 
many mines installing inappropriate or unnecessary technology.
    We urge the committee to defer consideration of these measures 
until all parties'--labor, industry, regulators and members of 
Congress--can fairly and independently analyze the MINER Act's impact. 
We achieve more when the total mining industry comes together to solve 
a problem without alternatives agendas, when we harness the collective 
efforts of industry, labor and government representatives toward a 
common purpose.
    Mr. Chairman, thank you for the opportunity to provide our 
perspective on this vital public policy matter. If you or the other 
members of the committee require additional information, we stand ready 
to provide it.
                                 ______
                                 
    Chairman Miller. Thank you very much.
    Mr. Roberts?

             STATEMENT OF CECIL ROBERTS, PRESIDENT,
                 UNITED MINE WORKERS OF AMERICA

    Mr. Roberts. Thank you very much, Mr. Chairman, not only 
for today's hearing, but your continued efforts to make the 
coal mines in the United States of America safer.
    I thank the committee for allowing us to come here today. 
Unfortunately, as has been mentioned here, this is not our 
first opportunity to speak to you about a tragedy in the mining 
industry in the United States.
    I am humbled being in the presence of these family members. 
We have had the opportunity to work with them over the past few 
days and, in fact, over the past month or so, and I wanted to 
commend the courage that they demonstrated to come here today 
in the face of great grief and tragedy in their families and 
courageously sit before you and testify. We could all learn 
something from this kind of courage and this kind of 
leadership.
    I want to thank all those rescuers who risked their lives. 
We had three individuals give their lives trying to save 
someone else, and the Bible tells us there is no greater thing 
that can be done on this earth than to give your life or offer 
your life to save someone else.
    I have been highly critical of MSHA, and I plan to do so 
again today, but I want to make it perfectly clear that I am 
not talking about those brave men and women who walk into those 
coal mines every day alongside our members and the nonunion 
workers in this country, and I want to commend the family of 
Mr. Jensen who is here with us today for their great sacrifice, 
and I want to make it very clear about what we are talking 
about. We are talking about the policymakers at the top and the 
culture that exists within MSHA when we talk about them.
    I also want to mention that we are joined here today also 
by family members from Sago and Jim Walter Resources also. We 
come as members of the union, we come as nonunion miners, we 
come as family members grieving, but we all come with a single 
purpose, Mr. Chairman, and that is to hope and pray that we can 
get our government to move to make the mines safer in the 
United States of America so that when a coal miner walks out of 
that door going to work with that lunch bucket in his hand and 
gets in his truck or his car and leaves for work, that family 
has a reasonable expectation in the greatest country on earth 
that that miner is returning, and I do not think that is too 
much to ask of our government.
    Mr. Chairman, I speak today not as the president of the 
union per se, but I have 36 years experience here. I was a coal 
miner myself for 6 years. I represented workers on the health 
and safety committee. I represented workers as a district 
representative. I represent workers now. I am very fortunate to 
do so at the national level. And, today, we have members of our 
union that have traveled here from across the eastern part of 
the country to be with us today because they are concerned 
about what is going on in the coal mines in the United States 
of America, and we are very thankful for them being here.
    I want to speak to you today, Mr. Chairman, and just point 
out something that is very evident to every expert in the 
United States of America, and this just is not my personal 
opinion. I would point out that this has been shared by the 
Colorado School of Mines. This is shared by NIOSH. This is 
shared by former director of MSHA David McAteer.
    There is no way that this coal operator should have 
submitted this mining plan. There is no way that this 
government should have approved this mining plan. You heard 
previously from the previous panel an experienced miner who 
said, ``I could not believe it when I looked at this mining 
plan.'' The reason question for our government, the real 
question for this panel from my expectations would be, ``Why 
would a coal operator believe that they could submit this plan 
and get it approved, and why would that plan be approved in 12 
days?''
    We can talk a lot here, Mr. Chairman, about what happened 
here, and we can have a very extensive investigation. By the 
way, I support your efforts in this investigation to get to the 
bottom of what happened here, but what we have now is a coal 
operator who submitted this plan and a government agency that 
approved this plan the only ones being involved in this 
investigation.
    And I want to speak for these families for a moment, not 
just these families, but I want to speak for a second for the 
Sago families, and I want to speak for the Jim Walter families 
and the Darby families. It is just atrocious the way we treat 
families in these disasters. They are the last people to know 
anything. They are not told anything. They are not part of the 
investigation, and they have to read a document 2, 3, 4 years 
later to find out what happened to their loved ones. We can do 
better than that in the United States of America.
    I would be happy to answer any question that this panel 
has, and we have submitted a very lengthy written document.
    With that, I thank you for conducting this hearing, Mr. 
Chairman.
    [The statement of Mr. Roberts follows:]

Prepared Statement of Cecil E. Roberts, President, United Mine Workers 
                               of America

    Chairman Miller, Members of this Committee, as President of the 
largest Union that represents coal miners, I am honored that you have 
asked me to offer testimony regarding the August 2007 disasters at 
Crandall Canyon Mine in Huntington, Utah. It is with a heavy heart that 
I appear before you to discuss--yet again, and in far too short a span 
of time--the deaths of mine workers. Our hearts and prayers have been 
focused on the families of the six miners who were trapped in the 
Crandall Canyon mine, and the three who were killed trying to rescue 
them.
    I also wish to express my deep appreciation to everyone who 
participated in the rescue efforts. During these most trying of times, 
many brave miners demonstrated extraordinary courage by contributing to 
the rescue efforts. Not only did all rescuers play a valuable role 
throughout the rescue effort, but three of them paid the ultimate price 
as a result of their bravery, including an MSHA inspector. We cannot 
thank them enough, and we keep their families in our thoughts and 
prayers, too.
    In the hearing room there are a number of active miners from coal 
mining states. They are here because they care deeply about miners' 
health and safety. We all appreciate the many hard-working civil 
servants within MSHA who work tirelessly to protect miners' health and 
safety. The miners join me in urging Congress to ensure that MSHA 
aggressively protects miners' health and safety, so that they can 
perform their jobs safely and return home to their families each and 
every day.
    Most of all, I want to express my profound appreciation for the 
many family members from the Crandall Canyon disaster who have traveled 
to Washington to share with you their perspective about the Crandall 
Canyon disaster. Though they are still grieving, they have come to tell 
their stories, and to remind us that we should learn all that we can 
from the Crandall Canyon experience to prevent future mining deaths. I 
am humbled to participate in the same hearing and to be able to provide 
my own perspective on this needless and tragic loss of miners' lives.
    Mr. Chairman, I have given considerable thought and attention to 
what impact the MINER Act of 2006 may have had on the lives of miners 
in this country. Unfortunately, the Crandall Canyon disaster 
demonstrated that many conditions are not much different from last 
year, and miners facing a mine fire or explosion or other accident 
still face most of the same challenges that miners at Sago, Aracoma and 
Darby faced over one year ago. I am sorry to say this is the current 
state of mine safety and health.
    Just since the Sago explosion in January 2006, 71 American coal 
miners have died on the job. This Committee's inquiry into the Crandall 
Canyon Mine Disaster is terribly important to ensuring that miners' 
health and safety are protected, so that we do not have to confront 
more needless death and injury.
    My most important message to you today is that the Crandall Canyon 
disaster began on June 3, 2007, not August 6, 2007, because June 3 is 
the date when the mine operator submitted to MSHA a plan to engage in 
retreat mining at the Crandall Canyon Mine.
    Likewise, MSHA's best chance for saving the miners was on June 15, 
not August 6th. But when MSHA approved the Crandall Canyon mining plan 
on June 15, that chance was lost.
    Make no mistake about it, this disaster was not an act of God, but 
an act of man. It was preventable.
The Risks of Pillar Mining at Crandall Canyon
    All the factors that lead to the catastrophic collapse at Crandall 
Canyon Mine may not yet be evident, and they may never be fully known. 
However, what is apparent after reviewing the available information and 
examining the mine map, is that the conditions that lead to this tragic 
event were man-made. The disaster at Crandall Canyon could and should 
have been prevented. Contrary to what some may say, there is little 
doubt that this was a man-made disaster.
    It is important to understand that the Crandall Canyon Mine was in 
the last stages of its productive life. The previous operator, Andalex 
Resources, had extracted most of the mine's recoverable reserves 
utilizing a technique known as longwall mining. After completion of the 
final longwall panel the only remaining reserves were the ``barrier 
pillars'' and the mine's main entry pillars. Andalex Resources deemed 
this remaining coal crucial to maintaining the mine's stability. In 
documents it filed with the Utah Division of Oil, Gas and Mining that 
company stated, ``Although maximum recovery is a design criteria, other 
considerations must be looked at in the final analysis in the 
extraction of coal. These factors consider the insurance of protection 
of personnel and the environment. Solid barriers will be left to 
protect the main entries from the mined out panels and to guarantee 
stability of the main entries for the life of the mine.''
    Despite these expressed concerns of Andalex Resources, email 
correspondence between the engineering firm of Agapito Associates, Inc. 
and Mr. Lane Adair of GENWAL Resources on August 9, 2006, indicated it 
had completed a preliminary review of the ``* * * proposed retreat 
mining sequence in the Main West Barriers. * * *'' This correspondence 
occurred on the same day that Murray Energy Corp. apparently became the 
``controller'' of the operation. On December 10, 2006, Agapito 
President and Director, Michael Hardy, sent a letter to Mr. Adair after 
visiting the Mine to ``* * * review the ground conditions of the room 
and pillar mining in the north pillar along Main West. Mr. Hardy 
determined that, ``There was no indication of problematic pillar 
yielding or roof problems that might indicate higher-than-predicted 
abutment loads.'' Beginning ten days later, on December 20, 2006, 
Murray Energy's subsidiary, UtahAmerican Energy, Inc. (hereafter 
referred to as ``Murray Energy'') submitted several amendments to the 
roof control plan to develop entries into the north barrier, Main West 
and to remove pillars from those entries during retreat mining 
operations. MSHA, District 9 Office in Denver, CO approved each of 
these plans.
    In early March 2007, the Crandall Canyon Mine experienced a large 
``mountain bump'' while pillar extraction was being conducted in the 
north barrier. The bump was so severe that Murray Energy abandoned its 
plans to develop the remaining north panel (consisting of approximately 
54 pillars), and sealed the area. While it is unclear if Crandall 
Canyon Mine management officially notified MSHA of this event, the 
resulting seal plan that had to be submitted to the Agency should have 
at least raised questions about why the operator was abandoning that 
large area of the mine.
    Before the large ``mountain bump'' in early March, Murray Energy 
had submitted plans to develop the south barrier of Main West. On March 
8, 2007, MSHA approved a request by mine management to pillar the area. 
Pillar extraction continued until August 6, 2007, at which time the 
retreat mining was almost due south of the area where the bump had 
caused the operator to abandon the north barrier section. At that time, 
a catastrophic ``mountain bump'' trapped the six miners in the working 
section. The force of the bump registered approximately 3.9 on the 
rector scale at the University of Utah Seismic Stations.
    Considering that only the north and south barrier pillars separated 
the mine's main entries from vast areas of unsupported gob, and that 
the previous owner refused to mine these barriers for safety reasons, 
it is deeply distressing that Murray Energy sought to mine in this 
area, and submitted such plans to MSHA. Because of the extent of the 
previous mining there can be no doubt that the overburden was exerting 
extreme pressures on the remaining coal reserves. It is impossible to 
believe that development and pillar extraction of the barrier pillars 
in the Main West area of the mine, which began sometime after August 
2006, would not adversely impact the conditions in the mine.
    From all that we have seen, we believe that plans to perform pillar 
development and extraction of the barrier pillars at the Crandall 
Canyon Mine should never have been submitted. Further, and perhaps more 
importantly, MSHA is charged with protecting miners' health and safety, 
and should never have approved any such request. It is high time for 
mine operators and MSHA to realize that miners' lives, and not the 
mining product, are the most valuable resources of the mining industry. 
Only when this happens can the needless loss of life end in our 
nation's coal fields.
Communications Problems at Crandall Canyon
    It is also unfortunate that the management team at the Crandall 
Canyon Mine spent so much energy trying to deflect blame in this 
tragedy. It is equally unfortunate that MSHA, yet again, ignored the 
will of Congress in its reaction to this disaster.
    Section 7 of the MINER Act states that MSHA ``shall serve as the 
primary communicator with the operator, miners' families, the press and 
the public.'' Nevertheless, in Utah MSHA surrendered its role as chief 
communicator. As a result, a great deal of inaccurate and misleading 
statements and information went over the airwaves. The effect was that 
millions of Americans were given incorrect and misleading information 
right from the start of this disaster, and MSHA allowed it to happen. 
Here are some examples:
    1) From the very beginning, Murray Energy's Owner and Chief 
Operating Officer, Robert Murray, asserted that ``an act of God'' in 
the form of a natural earthquake caused this catastrophe. He suggested 
that the ``seismic activity'' at the mine was uncontrollable and 
unrelated to his company's activity. However, from tapes made of calls 
to the local Sheriff's office that same morning, it is apparent that 
from the time it occurred, University of Utah seismologists believed 
the activity was the result of coal mining.
    2) Time and time again Mr. Murray emphatically stated that he knew 
exactly where the trapped miners were. Yet eight weeks and many 
boreholes later he still has not been able to locate the miners.
    3) Mr. Murray also strenuously objected to reports that miners were 
performing a final method of mining referred to by the media as 
``retreat mining.'' Again, he was not giving true information: from the 
approved mining plan it is evident that this mine was in the process of 
``pulling pillars,'' which is a particular type of retreat mining. Not 
only was this operation performing ``pillar mining'' or ``pillar 
extraction,'' but in communications involving this mine, principals 
characterized this mining process as ``retreat mining.''
    4) Mr. Murray claimed that the mine was perfectly safe when he 
invited non-essential personnel from the media and families to tour the 
underground rescue work. However, not only did they experience a 
``bump'' while they were underground, but it was in the same vicinity 
where nine rescuers were injured and killed just days later.
    5) Mr. Murray stated that he had not had any major accidents at any 
of his mines prior to this. The truth is that four miners have been 
killed at Mr. Murray's mines. Any time a miner is killed, that 
constitutes a major accident.
    6) Mr. Murray continually said that the UMWA was trying to organize 
the Crandall Canyon mine, and that somehow was to suggest nothing we 
had to say about this incident could be trusted. While we strongly 
believe that all miners should have the benefits of a union contract--
not the least of which is the enhanced safety language written into our 
contracts--we were not engaged in an organizing campaign at that mine 
at the time of the incident there, nor had there been any organizing 
activity at that mine for years.
    7) Mr. Murray also claimed that the UMWA was responsible for the 
stories about the company intending to reopen a part of the mine to 
production, when in fact it was his own Murray Energy Vice President 
who made those statements to reporters.
    These are but some examples of the inaccurate and misleading 
statements Mr. Murray made that met with no contradiction from MSHA--
statements that were seen by many as having an ``official'' stamp of 
approval since in most cases they were made with MSHA officials looking 
on, making no attempt to correct him.
    What was so astounding about the press conferences at Crandall 
Canyon is that the conduct of Mr. Murray, and MSHA's indulgence of him, 
were directly contrary to Section 7 of the MINER Act, which Congress 
expressly added to prevent the kind of misinformation debacle that 
occurred at the Sago mine. There, the families were first told their 
loved ones were alive and were leaving the mine, whereas the reality 
was that only one of the thirteen survived; it was hours before the 
misinformation was corrected.
    Regardless of whether Mr. Murray may have wanted to convene and 
conduct press conferences, there was no reason, requirement or benefit 
to the miners, their families or the public for MSHA to participate in 
the events he, as the private operator, staged. As the federal Agency 
affirmatively charged with communicating with the families and press, 
MSHA should have exercised its power and conducted independent press 
conferences to provide objective reports of developments at the 
disaster site. Instead MSHA representatives yielded their authority; at 
best they stood in the shadows as the coal operator spun his story, at 
worst they cowered out of view refusing to correct the half truths and 
misstatements. Further, it has been widely reported that Mr. Murray's 
attitude was abrasive and demeaning to these grieving individuals. 
MSHA's responsibility to serve as the liaison should have protected the 
families from him.
Families Facing a Mine Disaster Deserve Better
    In the MINER Act, Congress took action to ensure that families 
facing mining disasters would be treated with the dignity they deserve 
and would be kept abreast of the most accurate information available. 
This did not happen for the families of the trapped miners at Crandall 
Canyon. Like the Sago families in January of 2006, they were held 
almost as captives, awaiting any bits of information (or 
misinformation) delivered by the coal operator.
    How is it possible that MSHA could get it so wrong in Utah? How 
could it ignore the mandates of Congress, which requires the Agency to 
take charge of such accidents and serve as the liaison with the 
families and press? By allowing this mine owner to take center stage, 
MSHA ignored the directives of the MINER Act. In so doing, it failed 
the families at Crandall Canyon. They deserved--and still deserve--much 
better. If the leadership of MSHA is not willing or able to limit the 
activity of a single mine operator in the face of express authority to 
take such control, how can we expect them to effectively lead the 
Agency that is charged with regulating an entire industry?
    On behalf of their loved ones, the families of those trapped at 
Crandall Canyon asked the UMWA to serve as their miners' 
representative. This would ensure that their designated representative 
would be able to participate in the accident investigation. However, 
MSHA has rejected their request, claiming that it would have to first 
verify that the miners themselves made the designations. Obviously, a 
trapped miner cannot provide that assurance. Their next of kin 
attempted to fill the void to ensure that the trapped miners had a 
representative looking out for their interests.
    By denying the family members a right to designate a miners' 
representative for their trapped miners, MSHA has essentially said that 
when miners are trapped in a mine, they forfeit their right to 
designate a Section 103(f) representative; their Mine Act rights are 
thereby nullified through no fault of their own. In denying the 
families the right to make such a designation for their trapped miners, 
MSHA has prevented those most affected by the tragedy from having a 
voice at the table during the investigation. This is offensive and must 
be corrected.
    MSHA's spokesperson criticized the UMWA for attempting to serve as 
the trapped miners' designated representative, claiming that we ``are 
trying to use a law enforcement investigation for its own purposes.'' 
We confirm that the UMWA does have its own purpose in mind. The reason 
is simple: we want honest and complete information about everything 
that happened--from before the latest mining plan got prepared, 
submitted and approved. We want to make sure no more miners' lives are 
lost. The UMWA is the ONLY organization in this country that is 
dedicated to advocating for miners' health and safety. We are proud of 
advancements that have been made at our urging, and we don't plan to 
stop anytime soon.
    So yes, the UMWA does have a purpose of our own here: to fight for 
and improve mine safety in America. We invite MSHA to join us in that 
endeavor, instead of casting veiled aspersions on our efforts on behalf 
of coal miners and their families.
    To the extent that MSHA feels current law may not allow it to 
recognize the UMWA as a miners' representative absent proof that the 
miners themselves have made the designations--something the trapped 
miners obviously cannot satisfy--we urge Congress to change the law. 
Family members of those trapped or killed in a mine accident should 
have the right to designate a trusted representative to participate in 
the accident investigation.
    MSHA has also indicated that regardless of whether the UMWA would 
be recognized as the miners' Section 103(f) representative, the Agency 
is limiting attendance at witness interviews to just MSHA and 
representatives of the State of Utah. Not only is the Agency excluding 
the UMWA, but MSHA is refusing to share access to interviews and 
documents with the Utah Mine Safety Commission until after MSHA 
completes its investigation, which will likely be many months from now. 
MSHA is also denying access to the press.
    This is markedly different from how MSHA conducted investigations 
at Jim Walters and Sago. For both of those investigations the Union had 
access to information during the investigation and was able to issue 
its own reports; the UMWA reports varied somewhat from MSHA's 
investigative reports, and offered an independent perspective.
    While MSHA claims that providing such access might ``compromise the 
integrity of the investigation and potentially jeopardize MSHA's 
ability to enforce the law,'' we are skeptical of the asserted bases 
for restricting access. In considering MSHA's rationale for denying 
access during its investigation at Crandall Canyon, is important for 
you to know that MSHA has never claimed that access to other interested 
parties during either the Jim Walters or Sago investigations in any way 
compromised the Agency's ability to engage in its law enforcement 
efforts.
    We have asked Secretary Chao to reverse the position MSHA has taken 
both in response to our effort to serve as the trapped miners' 
designated representative, and to attend the witness interviews. A copy 
of my letter is attached; we have not yet received the Secretary's 
response.
    Further, and as we have written to you, the UMWA feels that it is 
imperative that there be an independent investigation of this tragedy. 
A copy of this letter is attached. Otherwise, MSHA and the operator 
will simply be investigating what they themselves did. Curiously, 
Secretary Chao claims to have appointed an independent team, but those 
she appointed assuredly are not independent. Rather her team is being 
lead by two retired MSHA inspectors. Thus, MSHA and the operator are 
once again investigating what they themselves (i.e. their colleagues) 
did. That is not the best way to ask the hard questions or to get the 
full truth. Our goal must be to learn from what went wrong at Crandall 
Canyon so that no more families will suffer such needless loss of life.
Has the MINER Act changed the post-accident situation?
    Miners working today do not have many of the health and safety 
benefits that Congress demanded through the MINER Act in 2006. The 
additional oxygen devices you insisted be available to underground 
miners are still on back order, effective wireless communication or 
tracking devices have not been installed, and MSHA has approved 
Emergency Response Plans (ERPs) that do not require operators to 
provide the safety and health protections Congress expected.
    For example, in most instances tracking of miners is still being 
done today the same way it was done before the Sago disaster: operators 
rely on their dispatcher, and only know in which ``zone'' a miner is 
assigned to work. As we all know from Crandall Canyon, despite 
assurances that the operator knew ``exactly'' where the trapped miners 
could be found, without reliable tracking devices, rescue efforts are 
delayed and mis-directed. Until trapped miners can be located, rescuing 
or recovering them is virtually impossible.
    While the MINER Act allowed advanced wireless communication and 
tracking devices to be phased in within 3 years, they should be 
required as soon as they become available. However, rather than 
demanding that operators quickly utilize improved equipment and 
technology as soon as it becomes available, MSHA is allowing operators 
to wait out the clock until the 3-year deadline comes to a close.
    You probably recall the stories last year of the Polish miner 
pulled from wreckage after he was located through use of a tracking 
device, and that of the Canadian miners trapped underground but safely 
retrieved from the safety chamber to which they had retreated. The 
Crandall Canyon miners did not have these advantages. However, if other 
countries' miners can survive and escape these disasters, then so 
should American miners. We need change, and we need it now.
    As Crandall Canyon has revealed, miners caught underground have 
little better chance of survival than did the miners at Sago, Aracoma 
and Darby in 2006--or even those who perished in the disaster at 
Farmington in 1968. Although we have advanced the calendar some 40 
years since the Farmington disaster, in many instances miners are 
caught in a time warp, still trying to adapt the health and safety 
technology of the 1960's into today's mining environment. For example, 
Congress directed MSHA to consider safety chambers in the 1969 Mine 
Act, but they still remain largely absent from our mines. Moreover, the 
regulation MSHA implemented requires operators to provide supplies to 
build a barrier after an accident occurs. This was required before the 
MINER Act, though since the MINER Act operators now must provide 
breathable air and other requirements to sustain life. However, having 
supplies available for construction of a safe haven after an accident 
will often be too late: the post-accident atmosphere can be toxic and 
so smoky that miners cannot even see their own hands, and they may well 
be disoriented, making it impossible for miners to then construct a 
safe haven.
    After the three high-profile disasters last year that claimed 19 
lives, Congress passed the MINER Act. That historic legislation was the 
first miners' safety and health legislation in 30 years. It placed new 
requirements on mine owners and operators to improve miners' safety. 
Some, like directional lifelines, additional self-contained self-
rescuers (SCSRs) and Emergency Response Plans (ERPs) were required 
immediately. Others, including advanced wireless communication and 
tracking devices were to be phased in over 3 years as they become 
available. We said then and still believe that the MINER Act 
represented a good ``first step,'' but so much more is required.
    As the MINER Act is being implemented, MSHA has been too tolerant 
of operator delay. While directional lifelines require no new 
technology, and could be immediately placed into use to guide miners 
out of a mine during an emergency, MSHA is allowing some operators to 
set their own time frames for meeting this requirement. As for the 
miners' need to have supplemental oxygen, though the MINER Act required 
operators to store additional supplies for miners' use if trapped, 
MSHA's regulation permits the supplies to be stored in a location that 
is too remote. Based on the existing regulation, if the Crandall Canyon 
miners survived the initial event, they would not have been able to 
access what oxygen should have been stored because it would have been 
too far away, on the other side of the collapsed area of the mine. 
Moreover, though the MINER Act required operators to submit their ERPs 
by August 2006, the Crandall Canyon ERP was only approved in June, 2007 
and the supplemental oxygen need only to have been in place 60 days 
later * * * after the miners were trapped on August 6. Why the operator 
was given 60 days to provide the oxygen is puzzling, as the oxygen 
canisters should be readily available and there was no good reason for 
the delay.
    We wish to note that some operators have gone beyond the minimum 
requirements to protect miners, but many more meet only MSHA's minimum 
standards. MSHA could and should be pushing operators to utilize the 
best available technology to better communicate with and track miners. 
We believe that was what Congress expected when it enacted the MINER 
Act last year. Crandall Canyon graphically demonstrates the 
consequences of operators' and MSHA's intervening complacency.
Cultural Problems at the Top of MSHA
    The problems within MSHA begin at its highest levels. Indeed, there 
has developed at MSHA a culture of cooperation rather than enforcement. 
When then-Assistant Secretary of Labor for MSHA, David Lauriski, 
initiated a new ``compliance assistance'' plan, he sanctioned a 
different way of pursuing the Agency's mission. That new program 
chilled enforcement efforts at the mine level and allowed operators to 
essentially negotiate workplace health and safety matters.
    The notion that MSHA should foster compliance assistance when its 
first priority is supposed to be miners' health and safety is 
preposterous. In MSHA's internal reviews of the three major disasters 
in 2006 it found plan reviews to be an area where better oversight is 
required. This lack of oversight and accountability played out to dire 
consequences at Crandall Canyon: the mine plan that was submitted 
should never have been submitted; and MSHA should not have approved it.
    The UMWA argued strenuously against MSHA's policy of compliance 
assistance ever since its inception. The Agency's highest officials 
have dismissed our objections to the culture of cooperation. It is no 
consolation to sit before this Committee and remind you of our 
continuing assertion that MSHA's effectiveness is compromised. The 
disasters at Sago, Aracoma, Darby--and then Crandall Canyon--represent 
the consequences of Agency misdirection and inaction.
    Lessons learned from decade after decade of miners' injuries, 
illnesses and deaths teach that strict enforcement is needed to protect 
miners' health and safety. These facts were reinforced by MSHA's own 
internal reviews of the tragedies at Sago, Aracoma and Darby. In each 
instance, the Agency discovered significant problems of non-
accountability and lack of oversight.
    There is a culture at the highest levels of the Agency that not 
only ignores the needs of miners, but the input and expertise of 
longtime MSHA field employees and specialists. MSHA's inspectors and 
specialists have years of practical experience, they work in the same 
conditions as do miners they seek to protect, they know the laws and 
regulations, and they strive to perform their jobs. Indeed, at Crandall 
Canyon one of it's finest gave his life while trying valiantly to 
rescue the six trapped miners.
    To successfully protect miners' health and safety, inspectors must 
receive uniform direction and support from their superiors. If we are 
to achieve the health and safety improvements anticipated by the Mine 
Act and the MINER Act, there must first be a cultural change within the 
Mine Safety and Health Administration. I submit to you that the reality 
of this situation is stark. If we fail to force a cultural change at 
MSHA it will continue to decline and eventually implode. We cannot 
allow that to happen.
    This Congress possesses the power to make vital changes to restore 
the direction of MSHA and ultimately offer miners the health and safety 
protections they deserve. Congress must require MSHA to focus first and 
foremost on the health and safety of miners. We urge this Congress to 
move swiftly to require immediate action on the mandates contained in 
the MINER Act and to be prepared to demand through appropriate 
legislative initiatives the next level of protections.
Problems of MSHA's Missed Inspections
    It has recently come to light that MSHA has failed to complete many 
of the required regular inspections of underground coal mines. Under 
the law, MSHA is required to inspect underground coal mines four times 
each year. It is not doing so. We do not know the extent of MSHA's 
failure to meet its inspection schedule, though we can tell you that 
the failure is significant. Regular inspections are essential. Many 
operators do not adhere to basic safety and health requirements and if 
they think MSHA will not come to inspect and cite them, the 
deficiencies will both multiply and endure longer.
    Also, miners are often reluctant to raise their bona fide safety 
and health concerns--whether to mine management or to MSHA. This is 
because they fear retaliation. Coal mining jobs are good jobs and in 
many mining communities they are by far the best (if not only) jobs to 
be had. Unfortunately, the anti-retaliation provisions of the Mine Act 
simply do not offer them sufficient protection, and miners do not trust 
them.
    After most of the press left the Crandall Canyon, owner Bob Murray 
sent threatening letters to at least some of those who criticized him 
while the disaster was playing out. We understand that he has sent such 
letters to press and private citizens, as well as politicians. He 
threatens each with retaliation if the criticisms are not retracted.
    The UMWA has its own experience defending against such claims of 
Mr. Murray. He sued the UMWA's Secretary Treasurer for comments made 
during a labor dispute we had with some of his Eastern operations. 
Though the UMWA successfully defended those suits, which were dismissed 
by the courts, his threats could serve to silence some would-be 
critics, and we suspect that is his chief goal. His threats are 
inconsistent with this country's notion of free speech, though they 
illustrate the kind of challenges a rank and file miner might worry 
about before daring to speak out.
    When miners fear that speaking out will cost them their livelihood, 
they remain silent, even when they have bona fide concerns about mine 
health and safety. Nobody should be asked to sacrifice his health or 
safety by going to work. It is the role of the government to protect 
miners' safety and health. The Mine Act states that plainly. 
Nevertheless, when miners are afraid to speak out, the government is 
not doing its job of providing them with adequate protection.
Control of a Mine Post-Accident
    Since 1977 MSHA has had the right to control all activity at the 
mine when disasters occur. By issuing a Section 103(j) Order, MSHA can 
secure this control. Yet, with but one exception at Scotia, MSHA 
chooses instead to utilize its authority under Section 103(k) which 
permits the operator greater latitude in directing a rescue operation.
    Under a (k) order, the operator prepares plans and submits them to 
MSHA, which must approve each component before it can then be 
implemented. That is the procedure that must have transpired when, just 
days before the rescuers were killed and injured, the operator proposed 
and MSHA approved a plan that permitted non-essential personnel (that 
is, press and family members) to travel underground with Mr. Murray to 
observe the rescue.
    We understand the curiosity of some within the media and the dire 
concern of family members, however the conditions at the mine were so 
unstable that some workers engaged in the rescue effort requested work 
away from the mining operation. There is no reasonable explanation for 
allowing non-essential personnel to be subjected to such dangerous 
conditions. They easily could have confused and hindered the rescue had 
the ``bump'' they did experience been larger in scale. While we thank 
God that there was only a minor mountain bump while these individuals 
were underground, we also recognize the situation could have become 
much more disastrous. They could have suffered the same tragic result 
that rescuers experienced when the large bump caused a cave-in, 
claiming the lives of three rescuers and injuring six others. Mr. 
Murray should not have submitted a plan to take guest travelers into 
the mine, and MSHA certainly should have known better than to permit 
it. That incident represented an extraordinary amount of poor judgment 
by both key parties to this rescue and recovery effort.
    MSHA should have brought to the site at a much earlier date experts 
who could address the unique geological conditions to help develop a 
safe procedure for rescuing the trapped miners. We recommend that there 
be designated a variety of mine emergency response experts who could be 
immediately called upon to service mining emergencies like those at 
Crandall Canyon, Sago, Aracoma, and Quecreek Even now, we call upon 
Congress to consult with a variety of geological, engineering, and 
other experts, public and private, to determine if the trapped miners 
can be safely recovered. The families deserve to have their loved ones 
back if that can be accomplished without sacrificing any more lives.
    We also seek an independent investigative body to analyze the 
rescue process to report on how that procedure could have been 
improved. At the end of the day, the most important thing we can take 
away from such a tragic experience is to learn from the mistakes so 
they will not be repeated. Only an independent investigation can hope 
to uncover the needed truths.
    Since the MINER Act was passed last year, we have heard operators 
complain about how much money they have to spend to comply with it. 
However, let me suggest that it is better to invest up front. Mining 
disasters are very costly--first and foremost in lost lives and the 
destruction of families. But accidents also consume huge amounts of 
time and energy on the part of the particular operator, not to mention 
federal and state governments, too: first the rescue and recovery 
efforts are expensive, and then the investigation takes another 
substantial commitment of capital. Wouldn't we all be so much better 
served if these resources would be dedicated to protecting miners from 
the problems in the first place? I am certain that was your intent when 
you enacted the MINER Act. Unfortunately, this goal has not yet been 
adequately realized.
Conclusion
    How many times must we demand that MSHA's practices change only to 
be ignored? How many more times will mine owners and MSHA thumb their 
nose at your mandates? Something must be done to change the status quo. 
Leaders must be held accountable for their actions and inactions. Just 
as mine operators cannot self-regulate, MSHA cannot function without 
being subject to the routine scrutiny of Congress and appropriate 
sanctions when necessary.
    The miners of this nation can no longer be asked to sacrifice their 
safety when their employers are focused on monetary profit with little 
regard to their employees' well being. It is time to place effective 
measures in place so that a miner may engage in his primary job of 
mining, without jeopardizing his life.
    I thank you for this opportunity to share our on-going concerns 
about the state of miners' health and safety in this country. I urge 
you to do all that you can to ensure that the investigation of the 
Crandall Canyon disaster is full and independent and that the families 
of all those devastated by the Crandall Canyon disaster get all the 
answers they want and deserve.
                                 ______
                                 
    [Additional submission by Mr. Roberts follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    Chairman Miller. Thank you very much, and thank you to all 
of you for your time.
    Governor, I want to again thank you for the cooperation 
that members of this committee or the staff of this committee 
received right after this incident in helping our staff people 
get connected to the community out there.
    I also thank you for your action in setting up the Mine 
Safety Commission, the state safety commission, and I think 
that we share an agenda with you. I would like to be able to 
figure out how we can share that information because I think 
the question you are asking about what is the role of the State 
of Utah--this, as you pointed out, is a major industry within 
the state, major employer within the state--What is that 
role?--and I think as your commission proceeds, I would hope 
they would feel free to share with us, when you think it is 
appropriate, concerns that they may have as to how we fit that 
role in.
    I think that now having gone through a number of these 
incidents, tragically, they are the same, but they are not the 
same, and for different reasons and in different situations and 
with different personnel back and forth. I think we need to 
understand how the state gets connected into this process on 
behalf of their citizens.
    We have had missteps, we have had accidents, we have had 
just failure to communicate, the wrong communications, but that 
is happened almost at every one of these incidents. So that is 
a pattern that we have to look at. We have had previous 
conversations with the Governor of West Virginia on these 
items; because these are your citizens, and you have to have 
some ability to inform them in real time with accurate 
information, and we see that too often the families are 
whipsawed back and forth because of multiple spokespeople or 
information or rumors, and it is a tough time, it is a tough 
situation. People's lives are right there at risk.
    But I am glad that your commission is looking at that and 
also the question of what is the appropriate role for the state 
in promoting mine safety and accident prevention. Again, we are 
working with an arrangement that was created a long time ago, 
and I think we are certainly open to the review of that process 
and, again, how do we interface with the states that have this 
responsibility that perhaps do not have all the authority they 
would like to have and, again, you will have to make that 
determination in terms of safety and prevention.
    There has been a lot of suggestion here today of the 
difference between union and nonunion mines, and we have heard 
that again. But I think the real question is: What are the in-
place margins of safety that are there for miners, whether it 
is union or nonunion, and how has that role been effectively 
carried out by the federal authorities and how can the state 
help in that and be part of that process? I think it is very 
legitimate for both of our inquiries going forward.
    You are, obviously, engaged, as you point out, with the 
commission with a review of your own state's role before and 
after the accident. I just think that this is very encouraging, 
and I think the voice of the state will be helpful. I really 
appreciate the speed with which you moved on that effort.
    Cecil, I want to thank you for making note of the fact we 
have had a lot of interaction with MSHA; and sometimes you are 
quick to condemn people across the board, but we have had a lot 
of assistance, a lot of information, a lot of help from various 
line people in MSHA, either because of their experience at a 
particular mine before the accident, after the accident, and 
their participation in rescue efforts.
    So I would not want to leave here with people believing 
that this is good versus evil, this is black versus white. That 
is really not the way it works. I have a great deal of 
frustration with the lack of diligence at the top of MSHA on 
this whole problem of mine safety, but many of the questions 
that you have raised, as you know, are questions that we are 
raising in our investigation that is being conducted on a 
bipartisan basis here with Mr. McKeon and his staff.
    Let me stop there for a moment and then see if Mr. McKeon 
has questions or statements, and then I would like to come back 
with a question after other members.
    Mr. McKeon. Thank you, Mr. Chairman.
    Welcome, Governor.
    My mom and dad were born in Utah, and I have family in 
Utah. So it is kind of like my second home. Good to see you 
here. We have not had a chance to meet before.
    You know, when I was a new congressman, we had the 
earthquake in Northridge which was in my district and it was 
devastating. We had 19 people killed, most of them in an 
apartment house in my district. I got there just as they were 
removing the last body, and James Lee Witt, who, at the time, 
was head of FEMA, gathered--the governor was there. We had the 
state counterpart of FEMA and local leadership. We all gathered 
in a room, and I remember the tone was set there how we would 
all work together to work through on this tragedy and try to 
rebuild.
    I would like to ask, during the aftermath of the accident 
at Crandall Canyon, can you describe the coordination, as you 
saw it, from Utah and the federal government? How did that 
work? Was there good coordination? Was it productive? Did you 
see things that could be improved upon?
    Governor Huntsman. I would like to think, Congressman, that 
we were as well organized as any state could be for this kind 
of tragedy. We were on site the day that it happened. We had an 
emergency cabinet meeting. We rallied everything from public 
safety to workforce services, human services, health 
department, public safety to be on standby to play any 
appropriate role that would help to facilitate the effort.
    Frustrating to me and others was the lack of any clear 
coordination or defined guidelines that MSHA was running by, 
and I say that using a military analogy, perhaps inappropriate, 
but when you have an incident like that, you expect MSHA to be 
parachuting out of the C-130 to take over the situation with 
some sense of direction and authority and clearly defined lines 
of decision-making. It did not appear to be that way.
    And so while we were organized and on standby--and I think 
we played a very helpful role--the central aspect of the 
response led by MSHA--not to say that Richard Stickler is not 
anything but a fine human being. He is a fine human being and a 
real professional, but there was a lack of defined authority 
and coordination with which I think we would have been a lot 
more effective as a state in perhaps playing an even better 
role in providing the support that was needed.
    We did everything we were asked to do. I think we went 
above and beyond the call of duty, even better than the state 
or the communities, many of whom are represented here, that 
jumped in and played significant roles. Everything was firing 
as part of the support system, with the exception of the 
clearly defined lines of authority by which MSHA should have 
been operating, in my mind.
    So that, as you can see, would be one of my 
recommendations, respectfully and humbly, to you, that heaven 
forbid anything like this happen again, but if it does, that 
there be some very clear lines of demarcation within which MSHA 
operates that then clearly defines what the private sector 
should do and say and be responsible for, and then logically 
what we as a state and the surrounding communities can do.
    It was almost complete, but for the one federal piece that 
sadly was lacking.
    Mr. McKeon. Thank you for that recommendation. I think that 
is what I am looking for, is recommendations that we can use in 
going forward to make sure this, as you said, if there is 
another incident, at least we do not bungle the rescue effort 
and the communication with the families.
    I do not know if you have had a chance to look at it. You 
commented in your testimony that you are concerned about 
overregulating. I worry about that every day that I am here, 
not on this particular incident, but the federal government 
period. We are working on No Child Left Behind and some other 
things, and I worry that we many times go too far in 
overregulation.
    Are there any provisions that you might know of in the S-
MINER Act, or anything else in particular that you have viewed, 
that would severely restrict the western mining industry?
    Governor Huntsman. Not to my knowledge. I think we need to 
operate under the assumption that first and foremost we put the 
well-being and safety of human beings, and if we can operate 
around that premise, I think we are going to be okay.
    An area in which I thought there was some deficiency was 
available technology, and, clearly, the experts had not 
operated in any kind of deep mine setting before. We are 
looking at 1,500, 2,000 feet below ground. Now, if you are 
expert at West Virginia or Pennsylvania mines where deep is 500 
feet, and you are prepared for that, when you hit deep at 2,000 
feet in Utah, you are completely unprepared.
    So whatever we are talking about and whatever kinds of 
technology we are envisioning, it would be very helpful if all 
of you would take into account the kinds of unique geography 
that exist in the western part of the United States that ought 
to be part of whatever technology development that you envision 
as well.
    Mr. McKeon. That is one of the concerns I mentioned. When 
we pass legislation here in Washington that deals with West 
Virginia, Utah, there are differences, and trying to be 
restrictive in federal policy sometimes causes you some real 
problems.
    So thank you.
    I do have other questions if we are doing another round.
    Chairman Miller. Thank you.
    Ms. Woolsey?
    Ms. Woolsey. Thank you, Mr. Chairman.
    I want to follow up on Mr. McKeon's line of questioning on 
available technology, and Mr. Payne started it with the last 
panel.
    Mr. Holland, you mentioned the proven safety techniques 
that are used in mines around the world that are not used in 
the United States.
    Mr. Roberts pointed out not only was a Polish miner 
recently rescued by the use of a tracking device, but that 
Canadian miners were saved because they had retreated to safety 
chambers.
    Any one of you. I would like all of you to answer this from 
your perspective.
    And, Mr. Watzman, I would like you to answer this around 
why hasn't NMA insisted, not asked, not suggested, certainly 
not fought against, our using, having regulations for the best 
available technology in the world? Why do we not have that in 
the United States of America? Why aren't we insisting on it? I 
just would like your opinions on it.
    Start with Mr. Roberts, if he would.
    Mr. Roberts. I think what we do in this country is say if 
it is not perfect and it does not work 100 percent of the time, 
we are not putting it in the mine, and the tracking device I 
was alluding to in my written testimony did, indeed, save a 
Polish miner's life last year. In the middle of one of the 
Senate hearings, that happened, and I mentioned it in the 
Senate hearing. Here in the United States, if that same miner 
had found himself covered up in a U.S. coal mine, he would have 
perished because we would not have found him.
    Now the Polish government has seen fit or the Polish mining 
industry has seen fit to say, ``Let's put these tracking 
devices on our miners, even though they may not work 100 
percent of the time.'' If they work 75 percent of the time, 
perhaps that is something we should consider. Last year's law 
gave us 3 years to get some of this technology in the mines. 
That does not prevent us from putting this in the mines now. 
The State of West Virginia, for example, has moved forward more 
rapidly than the other 49 states, and they should be commended 
for that.
    Ms. Woolsey. Mr. Watzman?
    Mr. Watzman. Thank you.
    We did not object nor do we object to the introduction of 
new technology. We supported the MINER Act last year and 
continue to. In fact, one of our member companies, Alliance 
Coal, has developed a tracking technology using RFID tags that 
they are using in their mines and other companies are using 
similar technology.
    What we have to recognize is those are predicated upon a 
backbone, an infrastructure underground, and there is the 
possibility and the likelihood, depending upon the severity of 
the event, that that backbone can become damaged during the 
event, and then the system becomes useless for its purpose.
    But that is not to say that the industry is not moving in 
that direction because I can tell you it is. There are 
underground coal mines throughout the industry that are 
installing underground tracking technology today.
    Ms. Woolsey. And that is good.
    Mr. Watzman. Yes.
    Ms. Woolsey. But you are on record wanting every 
underground mine to have those tracking devices?
    Mr. Watzman. We supported the MINER Act which requires 
that, yes.
    Ms. Woolsey. Mr. Holland?
    Mr. Holland. Let me respond by clearly saying that of the 
2,500 workers I represent in the State of Utah in one of the 
many hats that I wear, a third of them are covered by MSHA 
regulations in open pit mines and the concentration of ores. 
The facilities, the copper mines, are approximately an hour and 
a half from the central part of the state where the coal 
country is at, with similar geology.
    The copper mine is the largest open pit mine in the world, 
considering in the next 7 years a massive underground effort, 
so our union and our workers, our miners' reps, have been 
getting used to the ideas, getting more training. We have had 
underground miners who are certified in that open pit mine for 
quite some time, but we are looking at technologies, 
particularly in Canada and Germany, where I think the 
legislation has been gearing towards this even last year.
    It is the delays that are a concern, and the reasons for 
that, I think, are obvious. I do not need to make a political 
comment about that. But we need it. We need it sped up, I 
think, greatly.
    Ms. Woolsey. Okay. Thank you.
    Chairman Miller. Thank you.
    Mr. Kline?
    Mr. Kline. Thank you, Mr. Chairman.
    Governor, gentlemen, thanks for being here today.
    I want to thank you, Mr. Roberts, for pointing out that one 
of the rescuers, Mr. Jensen, was from MSHA, and the anger and 
frustration that we heard from many of the witnesses in the 
first panel is certainly understandable, but is not, I am sure, 
directed at everybody from MSHA because, clearly, there are 
people who in a very devoted and brave way stepped up to help 
those trapped miners.
    We are in the business here of trying to make public policy 
that is good public policy that can be enforced and that it 
does what it is supposed to do. It is not enough for us just to 
pass a law and then everything is okay. It has to be a law that 
works, and I think that we all recognize that. But sometimes in 
our frustration, it is hard to get past this desire to just 
pass a law and everything will be okay.
    So, if I could, I want to get at a couple of points, and I 
will go to you first, Mr. Watzman. We had an MSHA witness in an 
earlier hearing that expressed some concerns about the 
legislation that we are looking at now. We have a MINER Act, 
and now we are looking at an S-MINER Act, and I think the 
concern, as I understand it, was that the S-MINER Act would 
actually weaken some of the safety laws earlier. Do you share 
that concern, or did I mishear that?
    Mr. Watzman. No, I think you are correct. I think they did 
identify some provisions that they believed might weaken 
existing MSHA policy, and if memory serves me correct, I recall 
that they were referring to the existing requirement for 
notification within 15 minutes of certain events that might 
occur at a mine, and the S-MINER Act, I believe, would change 
those events that would have to be reported in that 15 minutes.
    Mr. Kline. Okay. Thank you. I want to pick up where some of 
my colleagues were earlier, and that is notification, 
communication with the families. I mean, it is clear that the 
communication was not adequate for the families who were 
waiting for news of their loved ones. You had people on the 
ground immediately, MSHA had people on the ground virtually 
immediately, the company, of course, had people there, and yet 
the families did not know what was going on.
    Is there something that we could put, should put in 
legislation that would address that, that would fix that? And I 
will ask any of you. Governor, why don't I start with you 
because your people were there. It is not a criticism of you. 
It is just, clearly, there was a shortfall. Either the state or 
MSHA or somebody was not getting the word out. So let me start 
with you.
    Governor Huntsman. I would go back to a comment I made 
earlier about clear and distinct lines of authority for MSHA. 
There is nothing like someone appearing on site you has the 
authority of the federal government who can speak with facts 
and with knowledge and with something backing them up as 
opposed to a private entity. It just inspires greater 
confidence.
    I saw it firsthand as this was playing out, and when that 
is not the case, there is going to be a lot of concern about 
the source of the information, the spin that perhaps is being 
put on the facts, and so I would say in this case, to be very 
clear going forward, that in a similar situation that there is, 
in fact, a designated spokesperson who speaks for the agency, 
the body that is overseeing the industry, MSHA in this case. If 
that had happened consistently--and I hope I represent the 
sentiment of many of the families represented with me--I think 
the atmospherics would have been much different.
    Mr. Kline. Okay. Does anybody else have any comment on that 
issue? Mr. Roberts?
    Mr. Roberts. Yes. In our written testimony, Congressman, we 
point out seven incidences here where Mr. Murray passed out 
erroneous information, but let me speak to the heart of this. 
Last year in the MINER Act, Section 7 of the MINER Act was 
clear that MSHA is to be the chief spokes entity, for lack of a 
better way of saying that, on site, talking to the press and 
dealing with the families.
    So you have to have two things here. You have to have laws 
that tell us what to do, and you also have to have somebody to 
enforce the law that is running the agency that is charged with 
what Congress tells it to do. So I would submit to you that 
there was a failure here to comply with the will of Congress 
from last year.
    Mr. Kline. Well, I see my time has run out. Here is a case 
where we already have it in law, and we had an agency, a 
bureaucracy that did not perform well. But the legislation was 
already there in the MINER Act. Is that right?
    Mr. Roberts. I think the legislation last year was clear. 
We looked at what happened at Sago when those families were 
told that all their loved ones were alive, and they celebrated 
for 3 hours to be told later, ``Well, no, sorry, that is not 
quite correct,'' and Congress said this cannot happen again.
    So now we are making it very clear to this industry and all 
the miners and all of their families in the country that MSHA 
is to be the one to communicate with the families and MSHA is 
the one to communicate with the press and there to pass out 
correct information, and there was a complete utter failure 
here, and there is no other way to sugar coat it.
    Mr. Kline. Thank you.
    Mr. Chairman, I yield back.
    Chairman Miller. I thank the gentleman.
    I would just say that, obviously, this is central to the 
wellbeing of the families and the communities, and I think what 
the governor and Mr. Roberts have pointed out, and I think that 
the timeline that we will develop here, shows that there was 
almost 2 weeks while MSHA was wrestling to get control of the 
communications, which is just unacceptable, because there were 
so many interventions going on by Mr. Murray and others with 
statements of fact that turned out not to be facts and the rest 
of this.
    So, yes, it is in the law, and it was specifically put 
there responding to a pervious accident, as Mr. Roberts has 
pointed out, at the insistence of those families who thought 
maybe the next group of families would be entitled to clear and 
more accurate communications, and it just did not play out that 
way, and we have to figure out how that happens. I think, 
again, the governor's commission offers an opportunity.
    You know, if at some point MSHA is not up to it--I think 
you are right--you need some independent authority on site that 
can deal with this, and we are going to have to sort out what 
the possibilities might be for that.
    Mr. Hare?
    Mr. Hare. Thank you, Mr. Chairman.
    Just some things that trouble me, Mr. Watzman, from the 
prior panel's testimony, again, referring to what my colleague, 
Mr. Andrews, is talking about, this 12-day period before the 
plan was approved, and then we asked one of the people and they 
said it should have been a minimum of 30. We had one of the 
people testify that bumps were reported by miners prior to this 
tragedy.
    I have heard it at all three of the hearings, 
unfortunately, we have had on this issue about intimidation, 
including you might get moved to a different shift, you might 
not be employed there again, you might have a difficult time 
getting a job working in a mine again.
    I just want to take exception with a couple of things in 
your testimony and then maybe ask you and Mr. Roberts to 
elaborate a little bit.
    You said, ``The S-MINER Act would permit a miner's 
representative or a representative of the injured party's 
family to request a public hearing, a special investigation. 
Processes of this type tend to go beyond an objective 
investigation of the facts. They create an opportunity for 
grandstanding by parties whose interests go beyond mine, health 
and safety.''
    It would seem to me that if the family wants somebody to 
represent them in a tragedy, I would be interested to know what 
you mean by the grandstanding portion of that.
    Also, you said in the testimony you submitted that ``The S-
MINER Act would also require underground coal mines to adopt 
administrative procedures to evacuate miners without the loss 
of pay if a lightning storm approached the mine,'' and then it 
goes on to talk about this type of approach failed to recognize 
that all the underground mines do not have the same risk 
factors.
    It may be, but the point is shouldn't we always--it seems 
to me--be in the mindset to err on the side of the people who 
are down in that mine? Shouldn't it be first and foremost the 
position of the industry to clear that mine out at the very 
hint of a possibility of a problem where we would have a loss 
of life or injury and without loss of pay, I might add. You 
know, I find this to be a little disingenuous of the industry 
because safety has to be first and foremost. These people have 
to have a place to go to work every day and come home safely, 
and that is what we are looking for.
    And then my last question to you would be--you said you 
wanted to defer and not have a rush to judgment on these bills 
that we are talking about--how long from your perspective do 
you think this committee or should Congress wait before we 
decide to implement and before we decide to do anything? And I 
guess my question is: Are we willing to roll the dice. Is this 
industry willing to roll the dice on coming back here with more 
families while we debate this thing? I mean, I think we should 
be moving on this thing yesterday.
    Mr. Watzman. Congressman, I do not know where to begin to 
respond. I think I have to respond by first saying this 
industry does put the safety of its people first and foremost, 
and I think that is demonstrated by the fact that there are 
approximately 14,000 mines in this country. Eighty-three 
percent of those worked last year without a single lost time 
injury. I think that shows that this industry by and large does 
put the safety and health of its people first. They are our 
first responsibility, barring anything else.
    In terms of how long should we wait, we believe that we 
should wait until the MINER Act is fully implemented and until 
we overcome the technologic challenges that we have and then 
all of us sit down collectively and see where the gaps are. 
That is the approach that we would encourage Congress to take 
at this time.
    Mr. Hare. Mr. Roberts, would you concur with that? I am 
assuming you have a different opinion on that. I am hoping you 
do.
    Mr. Roberts. Oh, there is no question about that.
    Let me point something out to the panel, if I might. This 
is not the first congress that has dealt with this issue of 
safety chambers. This is not the first congress that is dealt 
with this issue of communications. In 1968, after the 
Farmington disaster, Congress directed the agency--it was not 
MSHA then, but the predecessor to MSHA--``We want you to 
explore ways to get safety chambers into the coal mines in the 
United States. We also want you to come up with tracking 
devices,'' because there were 78 miners in that mine, and they 
could not locate them. It took 10 years to get most of those 
miners out of that mine.
    And today, we are sitting here saying, ``Well, maybe we 
ought to be requiring tracking devices in the United States 
coal mines because it is a good idea to be able to figure out 
where these miners are in the case of a tragedy.'' We are also 
talking about safety chambers. Well, Congress directed this 
back in 1969, and it still has not happened. So to suggest 
today that we are moving too quickly, I do not think that is 
the case.
    Mr. Hare. Thank you.
    I yield back.
    Chairman Miller. Thank you.
    Mr. Bishop?
    Mr. Bishop of Utah. I wish to thank all four of you also 
for being here again.
    For both the union and the association, there were some 
questions that were raised by the original panel, some very 
specific ones, and I would hope that rather than trying to do 
them now, if both the association and the union would be 
willing to try and answer in writing some questions that are 
put for you in writing, I think there are some specific answers 
that are doing that. We will try and make it so it is not 
redundant with the other seven organizations that are doing an 
investigation on this particular incident as well.
    I really wish to apologize to my two friends from Utah who 
happen to be here. I have another appointment to go to, but, 
also, I would be remiss if I did not welcome you here.
    Governor, we appreciate what you are doing with the state 
as well as the council that you have formed. I am appreciative 
of Ranking Member McKeon and his letter to try and make sure 
that the information that is needed by that panel is accessible 
to that panel. We will do what we can to do that.
    I especially want to welcome Mr. Holland for being here. 
You have many hats that you talked about. In addition to the 
United Steelworkers Association, you are also the chairman of 
the State Democratic Party in Utah, and I just wanted to wish 
you a great deal of success in your position with the United 
Steelworkers. [Laughter.]
    And if you would stop right there, I would be happy about 
it, too. No, but I appreciate you being here. This is a 
significant issue for all of us, and I appreciate the testimony 
that is being heard, and, hopefully, we will be able to 
continue this communication as time goes on with some specific 
answers to some of the specific questions that were raised 
earlier today.
    I yield back, Mr. Chairman.
    Chairman Miller. Thank you.
    Ms. Shea-Porter?
    Ms. Shea-Porter. Thank you, Mr. Chairman.
    I would like to thank all of you for being here.
    The last time or the time before, I cannot even remember 
now, I talked about reports that will sit on shelves and that 
nothing will really change just because we investigated and did 
a report.
    Something has to change right from the beginning before the 
accident. I heard one of the witnesses talk about how her 
husband said the mountain was talking to them before this 
happened, and there were signs that there was going to be 
trouble coming in this mountain. Why wasn't anything done then?
    I understand that a lot of times, especially in those 
nonunion mines, people are afraid to speak up because there 
will be retribution, but we all understand that. So what do we 
do to make sure that miners, whether they are in a union or not 
in a union, can speak up?
    For example, Governor Huntsman, is there an office inside 
your agency that allows people to call anonymously and report? 
And is there some way that every miner before he goes into the 
mines knows, ``Here is the number. You can call anonymously and 
be safe.''
    I want to see some very specific actions taken. What about 
MSHA? Is there a telephone number? Are they trained? Does 
somebody come to the mines quarterly or monthly and remind 
everybody ``We understand the politics in this mine is tough. 
We know that you risk losing your job if you speak up, but we 
are going to provide some protection and anonymity, and then we 
will follow up. So if you lose your job in 6 months or a year, 
we will be standing alongside of you and make sure that the 
people who punished you for speaking up pay the price.''
    Otherwise, all we have is reports on a shelf, and then we 
have families with pictures again. So I would like to start 
with you first, Governor. Is there some way for miners or their 
families to be able to reach out before the accident, and do 
you offer protection for them, whistleblower protection?
    Governor Huntsman. Well, whatever exists will be fortified 
as a result of what has happened. You bring up a very good 
point. I was approached randomly by people wanting to talk 
about things that existed in months gone by during an 
acquisition or takeover by a group, and I think that has been a 
problem historically, and what we are trying to remedy through 
the Mine Safety Commission--and no doubt this will be a key 
recommendation, a key finding, that we fortify this 
capability--is we are giving people in both Huntington and 
Price in open meetings a chance to speak out on all of these 
things that they have held in for fear that if they speak 
openly, there will be retribution, which is wrong. I think that 
has been a very cathartic thing for our communities.
    We are going to look very, very closely, no doubt. I do not 
want to pre-guess what the commission is going to weigh in 
with, but the ability for people to speak out--whatever we are 
doing obviously is not enough if people, first of all, do not 
know that any such office exists--and we have a very small 
Office of Oil & Mining that has done this since 1977--this is a 
key question, and we are going to review it, we are going to 
look at it, but beyond that, I think in a company context or 
even with an association within the state, the mining 
association, there ought to be the ability for people to speak 
out about issues about which they feel a concern.
    That has not been the atmosphere, apparently, and that 
needs to be improved.
    Ms. Shea-Porter. And I would say even a card, if they can 
go home and put it on the refrigerator, so they do not even 
have to stand at a wall because just standing at a wall looking 
for a phone number is enough for other miners to know or 
management to know that they are looking for that number.
    So you not only have to make it available to them at work, 
but you also have to put it in a card that they take home when 
they are hired and make it mandatory that they get their card 
when they are hired, so they do not have to ask for it.
    But this seems to be the crux of the problem, that we look 
afterwards and we look back, and we know each time that there 
were some signs, but people had to feed their families next 
week. So you also have to have some legislation to protect them 
if they do speak up, and I think, you know, this has been a big 
problem throughout this.
    I also wanted to ask Mr. Roberts a question. There were 
some comments here about worrying about overregulation. Do you 
worry about overregulation?
    Mr. Roberts. Of course, I do not run the coal mines, but, 
no, I do not worry about overregulation. I think if you go back 
and read the history of mining--by the way, I would happen to 
agree that the vast majority of operators in this country try 
to do the right thing to my friend's here on the right 
surprise, but laws are written to protect those miners who 
might be working for an employer who does not do that.
    Taking Mr. Watzman's statistics, there is 17 percent of the 
mines out there that did have accidents, and, unfortunately, we 
find ourselves right here. If you read the history of coal 
mining in this country, it was not until 1969--1969, that we 
passed any laws here at the federal government level to protect 
coal miners with enforcement mechanisms, and I must say my 
friends in the industry came here and said, ``You are going to 
put us all out of business. That is what you are doing.''
    Well, they did not go out of business, but the truth of the 
matter is, in the 25 years before the passage of the act, 
12,000 coal miners died in the nation's mines, and 25 years 
after the passage of that, less than 3,000. Nine thousand coal 
miners are alive today because Congress acted. That is my 
theory.
    Ms. Shea-Porter. I think that speaks a lot about 
regulation.
    Thank you. And I yield back.
    Chairman Miller. Mr. Holt?
    Mr. Holt. Thank you. Thank you, Mr. Chairman.
    And let me begin by joining the others in expressing the 
heartfelt sympathy for the families, the survivors of the 
miners who died.
    I know some might ask, ``Well, what is the interest of New 
Jersey? Why is a New Jerseyan sitting here listening to all 
this about mining? There is no mining in New Jersey.''
    Well, I mean, there are several reasons. Certainly, all 
Americans' hearts go out to the families who are the victims. 
All working people in New Jersey feel a solidarity with these 
people who are in what has come to be known as the most 
dangerous profession in America but need not be the most 
dangerous profession in America.
    But there is also a personal reason. I was born and reared 
in Lewis County, West Virginia. My father was an elected 
official known to some as the best friend a miner ever had, and 
so I take this personally, and I realize there is a lot we need 
to do with regulations and procedures.
    But one of the things that I wanted to ask about that 
concerns me is whether we are doing everything we can to 
provide the best equipment and the best technology. I have been 
talking with technology companies in my district in New Jersey 
that work on Army communications where in battlefield 
situations you cannot afford to have interrupted 
communications, and one company, Kutta Consulting, others are 
working on uninterruptible communications.
    You know, what just tears the hearts of Americans is when 
we think of miners stranded, trapped unable to communicate. 
That is technologically addressable. We can fix that. Are we 
doing everything we can? Take the area of communication or any 
of the other areas of technology. Are we doing everything we 
can to get that technology approved or required and into the 
mines?
    Let me first ask Mr. Roberts and then Mr. Watzman.
    Mr. Roberts. I think in some ways it speaks to the previous 
question that was asked. We, in our testimony, indicate that we 
do not think that the industry nor MSHA is moving rapidly 
enough to put the most advanced technology that exists today 
into the mines. The MINER Act gave the industry and MSHA 3 
years to see that that happened, but there is nothing that 
would prevent technology being placed in the mines now. We have 
given testimony previously on the Senate side to this issue.
    Mr. Watzman. Congressman, I think we are doing all we can 
right now, and I thank all of you for your help in providing 
more funds to the National Institute for Occupational Safety 
and Health and the vital role they play.
    You referenced Kutta Consulting. Their technology was 
tested within the last 2 to 3 weeks at two underground coal 
mines. There is hope for that technology. It has not reached 
the stage of commercial application yet. They are a small 
company. It will take them time to continue their tests. It 
will take time then for the technology to be approved for use 
underground.
    Electronic components that go underground go through a 
rigorous approval within MSHA through their approval and 
certification center. They have to be deemed intrinsically 
safe. What that means is that the device itself does not 
present a hazard underground. That is a tedious process. It is 
a costly process. It is a time-consuming process.
    One of the things that we think needs to be done today is 
while there has been much focus on MSHA in providing more 
funding for inspectors, similarly, we think that there should 
be more funding to staff up their approval and certification 
center. The very same people that were working there previously 
now have the extra responsibility of dealing with all this 
emergency technology without any more manpower. So that is one 
area where we could help dramatically to move things through 
the process more quickly.
    But the research is advancing, not nearly as quickly as any 
of us would like it to advance, but that work is ongoing each 
and every day.
    Mr. Holt. Governor?
    Governor Huntsman. Obviously, this is a question that comes 
down to cost, but I witnessed a very interesting dichotomy as 
this was playing out. While we had some fine human beings 
trapped in the mountain, at the same time, there was a space 
shuttle circling the earth, and I could not help but think up 
there is a space shuttle representing the world's best 
technology.
    They actually had an astronaut outside floating in space, 
space walking, repairing the space shuttle even while it was 
circling the earth, and I would look at the mountain, and I 
would think how is it that there could be such a dichotomy 
between the technology up there and what is being used here.
    Now what can New Jersey do? New Jersey has some of the best 
brain power in the world. We have some great universities and 
great minds, and to think that, you know, we could begin to 
pool--I do not know--as an association, Mr. Watzman, or, you 
know, through some other vehicle the best thinking and the best 
technology so that we can do underground what we are able to do 
in space so readily would be a wonderful thing for the most 
innovative, advanced and entrepreneurial country that the world 
has ever known.
    Mr. Holt. Thank you.
    Chairman Miller. Thank you.
    Mr. McKeon?
    Mr. McKeon. Thank you, Mr. Chairman.
    Mr. Roberts, you had a little discussion with Mr. Kline 
about statements that were given, probably some statements that 
were misstatements, and gave family members false hope. What 
would you suggest that MSHA do to control a private citizen's 
access?
    I watched a lot of this on television, and there was a ton 
of media there, and what would you do to deny a private 
citizen--you know, Mr. Murray had a lot of people he could go 
talk to, and it was hard for MSHA to try to control that. What 
would you suggest?
    Mr. Roberts. There are a couple of things I would suggest. 
One is the type personality an individual might possess. I 
happen to believe I could have controlled Mr. Murray, but that 
is a different story. I have dealt with him for about 30 years.
    I want to point out that under the law, there are two 
different orders that MSHA can issue. One is what they did 
issue, is a K order, that requires the operator to submit plans 
and actions to the government for approval. There is a second 
order they can issue, and it is called a J order. That J order 
gives complete, total control to the United States government 
in these situations. They could have, if they elected to do 
that, pretty much fired Mr. Murray on the spot, if that is what 
they elected to do. They did not. But that was within their 
power to do that. They chose not to.
    I think one of the things that would have extremely helpful 
in the beginning of this is if Mr. Stickler had called a press 
conference fairly quickly and said, ``I want everyone to 
understand something here, that any information that comes from 
any source other than me or my designated representative is 
information you should not be printing.''
    Now if they elected to print it after that, they would have 
been on notice. Quite frankly, I believe it was a week to a 
week and a half before they understood--they being the media--
that Mr. Stickler was in charge of this entire operation.
    The second thing that should have clearly happened--and I 
do not want to speak for the families, but I think they spoke 
very well for themselves--he was very abusive to them. He 
should have been removed by Mr. Stickler the very first time 
that happened. The families that are grieving and that are 
struggling and in pain and hurting should never be put through 
something like that, and, clearly, he should--he being Mr. 
Stickler--have exercised his authority to get this under 
control.
    Mr. McKeon. That is good advice for the future.
    You commented that we are not the first Congress to address 
this, that there was a law passed, and I think you said 1968. 
We passed a law last year, the MINER Act, the first mine safety 
legislation in 28 years, and it does take the federal 
government a while to move. You know, I think we would all like 
to see change, but that is kind of the way things happen.
    You know, the Pentagon was built during 1 year in World War 
II, and I have told people that if we had the same situation 
now, given the way our country has developed bureaucracy and 
ways to slow things down, that if we were to try to build the 
Pentagon right known in the same situation, first of all, we 
probably would not be able to build it. There would probably be 
some endangered species that would stop it.
    But if we did work our way through the court process and 
finally started to build it, we would probably be finished with 
the Korean War before we would get the Pentagon built, and that 
is one problem that we have with the bureaucracy we have and 
everything that tries to slow down any way of trying to get 
through government morass to get anything done.
    When we have the hearing on the S-MINER Act--I did not use 
my time earlier--the NMA was not able to participate as a 
witness during that hearing. I would have preferred that they 
did. MSHA, however, did get the chance to testify. They said 
that there were several areas of the legislation that would 
actually weaken mine safety laws.
    Mr. Watzman, do you share MSHA's concerns on that? Can you 
highlight some of the more serious concerns about the 
legislation?
    Mr. Watzman. I would say, as I did earlier, Congressman, 
MSHA identified specifically--and I recall them pointing to--
the current requirement in MSHA's policy which was then 
embedded in the MINER Act last year requiring 15-minute 
notification of certain events. The S-MINER Act would change 
those criteria and, in fact, I think it was their position and 
the view of others outside of the agency that, in fact, it 
would have at the time arguably lessened or allowed for an 
extended response period beyond that which currently exists 
under existing policy.
    Mr. McKeon. Well, I certainly hope that we learn from this 
tragedy, those who gave their lives and the families that have 
been left behind and the tragedy that they have had to deal 
with, and we should use it to make things better going forward 
in the future. We should be careful as we move forward that we 
do not make things worse, that we make things better, and, 
hopefully, we can do it in a way like we did on the MINER bill 
last year where we had industry, we had labor, we had 
interested parties working together on it. That is the way it 
should work.
    We should do it in a bipartisan way really instead of 
trying to make political points really so that we can avoid 
having the kind of hearing we have had today where we have to, 
you know, put these families through this kind of thing, and we 
can prevent these kind of disasters in the future. That is what 
we all want to have happen out of this kind of thing. That is 
the only good thing that can come out of it.
    Chairman Miller. Thank you.
    I want to thank you all for your participation.
    Let me just say to those who fear that we might go forward 
with the new law and that I would make it weaker, let me dispel 
from those thoughts. There is nothing in my history that would 
suggest that that would the case. So, if I can remove that 
quickly, you can endorse the act, but I do not think that will 
be the complaint against the act.
    But let me just say this. Some people were quite taken back 
when I said that mining was going to be a priority of this 
committee when I became the Chair of this committee. I meant it 
then, and I mean it now. And we are not going to go as slow as 
the slowest ship because, you know what, it is just as 
predictable as the sun comes up that we are going to sit in 
this committee room with another group of families, and we are 
going to do everything we possibly can to mitigate that from 
happening.
    With all due respect, Mr. Watzman, I bet a lot of families 
would take a 75 percent chance that the communication system 
works as opposed to no communication system at all, and it is 
the price of coal that is driving people back into some of 
these questionable mines, and it is the price of coal that is 
going to pay for the margin of safety. It is just that simple.
    You know, a lot of industries have to buy first-generation 
technology, and a lot of industries do not have the reliability 
that they want, but they have to proceed with it. In this case, 
when we continue to talk about human life, we have to deal with 
it in that fashion; and, you know, if I was dealing with an 
agency that had a much better record in terms of taking care of 
the safety of the miners, if I was dealing with an agency that 
had a much better record with compliance, I guess I could 
understand some of the argument.
    But there are huge gaps here from what this Congress has 
asked to be done and what has been done and, generally, it is 
because we only react in the cases of a crisis. We all come 
together in our sorrow. We all come together in our sadness. We 
make pronouncements, we pass a law, and we go away, and we wait 
for the next tragic accident.
    And if it just happens to one or two miners at a time, 
there is not much acknowledgement of that. But if it happens to 
six or eight or 10 or 12 miners, there is acknowledgement of 
that.
    So I just want to reiterate that this committee is 
dedicated to getting this right, and we are willing to work 
with any party at any time. I think we have, you know, a 
refreshing possibility with the governor's commission to 
continue to that discussion and these kinds of advancements, 
and I look forward to that. But we are going to proceed because 
we are going to increase the margin of safety for these 
workers, much of which tragically is already required under 
existing law, but has not been properly dealt with.
    So thank you very much for your insights and your 
testimony, and I certainly want to thank the families for their 
time and the effort to come and to join us here in the nation's 
capital so that all of my colleagues could understand what the 
real ramifications and the impact is of these tragic accidents. 
So thank you again to all of you for your participation.
    Governor, Mr. Holland, Mr. Watzman and Mr. Roberts, we look 
forward to continuing to work with you as we advance this 
legislation and continue to work on oversight of this agency 
and its responsibilities.
    Thank you very much.
    Yes. If people want to submit comments or statements, we 
will keep the record open for a 2-week period of time for 
people to feel free to do that.
    With that, the committee will stand adjourned.
    [The submission of H.Res. 631 by Mr. Miller follows:]

                              H. Res. 631

In the House of Representatives, U. S., September 5, 2007.
WHEREAS on August 6, 2007, six miners, Kerry Allred, Don Erickson, Juan 
        Carlos Payan, Brandon Phillips, Manuel Sanchez, and Jose Luis 
        Hernandez, were trapped 1,800 feet below ground in the Crandall 
        Canyon mine in Utah;

WHEREAS Federal, State, and local rescue crews worked relentlessly in 
        an attempt to locate and rescue the trapped miners;

WHEREAS three rescuers, Gary Jensen, Brandon Kimber, and Dale ``Bird'' 
        Black lost their lives during the rescue attempt;

WHEREAS the loss of the miners has had a tremendous effect on the local 
        community;

WHEREAS the emergency efforts coordinated by the Emery County Sheriff's 
        Department have been exemplary;

WHEREAS Utah is one of the largest coal producing States in the Nation, 
        producing over 21 million tons of coal in 2005;

WHEREAS coal continues to be the economic engine for many communities;

WHEREAS during the last century over 100,000 coal miners have been 
        killed in mining accidents in the Nation's coal mines;

WHEREAS the Nation is greatly indebted to coal miners for the difficult 
        and dangerous work they perform to provide the fuel needed to 
        operate the Nation's industries and to provide energy to homes 
        and businesses; and

WHEREAS many residents of Emery County and Carbon County, Utah, and the 
        surrounding areas, came together to support the miners' 
        families and the community has been steadfast in its efforts to 
        help the families of the missing and deceased: Now, therefore, 
        be it

Resolved, That the House of Representatives----

    (1) recognizes Kerry Allred, Don Erickson, Juan Carlos Payan, 
Brandon Phillips, Manuel Sanchez, Jose Luis Hernandez, Gary Jensen, 
Brandon Kimber, and Dale ``Bird'' Black for their sacrifice in the 
Crandall Canyon, Utah coal mine;

    (2) extends the deepest condolences of the Nation to the families 
of these men;

    (3) recognizes the many volunteers who participated in the rescue 
efforts and provided support for the miners' families during the rescue 
operations; and

    (4) honors the long national heritage of coal mining families and 
supports the tradition for the future.
                                 ______
                                 
    [Letter from Governor Huntsman submitted by Mr. McKeon 
follows:]
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                ------                                

    [A joint statement by relatives of the mining victims 
follows:]

  Joint Statement of the Families of the Miners Lost in the Crandall 
                          Canyon Mine Disaster

    The families of those men lost in the Crandall Canyon Mine Disaster 
want to thank Chairman George Miller and the Committee on Education and 
Labor for having these important hearings and inviting the families 
back to have a voice in this process. The families also extend their 
heartfelt gratitude to the United Mine Workers of America who assisted 
in bringing the families from Utah to Washington, D.C. for these 
important hearings, despite the unfortunate fact that the Crandall 
Canyon Mine was not unionized. The members of these families include 
three widows, four fatherless children, four siblings who lost 
brothers, and three in-laws to lost miners. One of the greatest pains 
and frustrations to the families is they have felt that they do not 
have a voice in what has occurred since the tragedy. They thank this 
Committee for giving them a voice.
    While the pain of losing their loved ones remains ever present, the 
families have traveled to Washington, D.C. because now is the time to 
make change. It is the families' hope and purpose that through these 
proceedings, change can occur that will prevent such tragedies from 
ever happening again to other mining families. The United States 
Government needs to assure that the Mine Safety and Health 
Administration (``MSHA'') is truly enforcing safety in the mining 
industry and regulating the industry, and not turning a blind-eye to 
dangerous mining practices. The mining industry likewise needs to place 
the safety of its miners above dangerous practices that increase 
profits at the peril of the miners and their families. MSHA needs to 
return to being an independent eye above the industry.
    It is likewise the families' desire that they, and others so 
unfortunate as them, are treated with respect by mine owners and MSHA. 
Rescue and retrieval plans need to include family input and 
verification and independent entities to assure that human lives are 
placed above profit. Involvement of the United Mine Workers Association 
is an important part of this process.
    The families again extend their heartfelt gratitude to this 
committee for moving for change. It is their hope that such change will 
occur that will prevent such tragedies from ever occurring in the 
future. MSHA and the mining industry must be responsible in the first 
instance, and then accountable when tragedies occur. While the loved 
ones of these mining families remain entombed in the Crandall Canyon 
Mine outside of Huntington, Utah, it is the families' desire that no 
one ever has to suffer what they have suffered the last two months and 
will continue to suffer throughout their lives.
            [Signed:]
                                            Kristin Kimber.
                                              Margie Byrge.
                                            Nelda Erickson.
                                             Amanda Romero.
                                              Steve Allred.
                                           Michael Marasco.
                                               Cody Allred.
                                        Sheila S. Phillips.
                                           Cassie Phillips.
                                             Cesar Sanchez.
                                             Marta Sanchez.
                                           Aydaliz Sanchez.
                                 ______
                                 
    [The prepared statement of Cody Allred follows:]

         Prepared Statement of Cody Allred, Son of Kerry Allred

    I want to thank Chairman Miller for the opportunity to provide this 
written statement, and the United Mine Workers Association for making 
it possible to attend and observe.
    Though my six and one half years of experience in a local Price, 
Utah coal mine may not possibly compare to the knowledge of MSHA and/or 
the Murray Companies, my goal in submitting this statement is to urge 
you to ask ``was it proper to consider mining this way, let alone have 
any men in that section of the mine?''
    I also want to comment on the rescue operations done by Mr. Murray 
and MSHA. I have heard the question, ``what could have been done 
differently?'' My answer is that Robert Murray promised us that ``cost 
was not an issue.'' Well, prove it to us! Make a 36 inch hole into the 
mine. This option was never attempted. There are other options out 
there that are not being considered to retrieve my father's body.
    How is it that the Mr. Murray would promise us that he would ``get 
the men out no matter what''? Retrieval operations have stopped. Mr. 
Murray has gone home. I know several men, me included, who are willing 
to continue working to get the men out.
    Better technology needs to be developed so that in the future the 
men can be located promptly. The failure to rescue and now retrieve my 
father has had a devastating impact on my family and I. I know that for 
certain from personal experience.
                                 ______
                                 
    [The prepared statement Nelda Erickson and Amanda Romero 
follows:]

   Prepared Statement of Nelda Erickson and Amanda Romero, Wife and 
                        Daughter of Don Erickson

    First off, we wish to thank Chairman Miller for the opportunity to 
be here to observe the Committee. We also want to thank the United Mine 
Workers Association and all those responsible for helping us come here.
    There are many things we would like to see changed. One would be 
for this tragedy to never happen again. More study needs to go into why 
there is seismic activity occurring in underground mining areas. There 
needs to be developed a system of threat levels depending on mining and 
seismic activity.
    The mine industry and MSHA are lacking newer improved 
communications underground and are lacking in pre-made plans in case of 
emergencies. MSHA could be more prepared in emergency situations.
    One big concern we have is how can MSHA inspect themselves during 
this investigation. The families need a voice in the investigations 
also.
    The manner in which Mr. Murray treated all family members was 
disrespectful and disgraceful. No other family members should ever be 
treated as badly as we were by Mr. Murray.
    This tragedy has affected our entire family dramatically. We no 
longer can trust mine owners or MSHA. Our everyday lives and financial 
situations have been significantly impacted. We miss our husband and 
father.
                                 ______
                                 
    [The prepared statement of Kristin Kimber follows:]

Prepared Statement of Kristin Kimber, Mother of the Children of Brandon 
                                 Kimber

    I want to thank Chairman Miller for granting me the opportunity to 
attend these hearings and provide this written statement. I would also 
like to thank the United Mine Workers Association for making it 
possible to be here.
    I always felt the mining industry was safe due to the checks and 
balances of MSHA and the owners of the mines to ensure the safety and 
well-being of all their employees and other workers in the mine. This 
belief has been ripped apart by the tragedy that killed Brandon and 
upon learning of Mr. Murray's mining practices and MSHA's rubber-
stamping the practices.
    My big question is how can Mr. Murray and MSHA investigate 
themselves, when nine men are dead under their watch? Mr. Murray and 
MSHA are to blame yet they are not letting the families participate in 
the investigation. Obviously, oversight is needed by Congress, the 
United Mine Workers Association and others.
    It is my prayer that this never happens again and that noone else 
will ever have to lose their daddy like my children lost theirs. Thank 
you.
                                 ______
                                 
    [The prepared statement of Jose Luis Payan follows:]

  Prepared Statement of Jose Luis Payan, Brother of Juan Carlos Payan

    I want to thank Chairman Miller for the opportunity to talk about 
my brother, Juan Carlos Payan (``Carlos''), who died in the Crandall 
Canyon Mine Collapse. I also want to thank the United Mine Workers 
Association for generously bringing me here to observe these hearings.
    Carlos died while working as a miner. He mined to help his siblings 
pay for school and to help his parents get ahead. Though single, he was 
a family man to his brothers, sisters, nieces and nephews. The wages he 
earned went to the family members he adored and loved. He loved his 
nieces and nephews and was the life of the party when they got 
together. He worried about those around him that they were happy and 
taken care of.
    Carlos loved his mother country of Mexico. He also loved his 
adopted country, the USA.
    I also worked in the Crandall Canyon Mine. While we are not mining 
engineers and could no way predict the tragedy that would come, the 
mine was making us nervous. The bump in March of this year was very 
scary. It required us to clean the mine floor from the coal that 
exploded from the sides and roof of the mine. The bump also damaged the 
conveyor and some equipment. Many left the mine. We trusted the mine 
owners that they would not mine in dangerous conditions. Our trust was 
misplaced.
    We had no union to turn to to express our fears and for protection 
from making them known.
    MSHA needs to be investigated to determine whether it was 
independent and proper in approving the mining of the barriers and in 
the rescue operations.
    I arrived four hours after the collapse to begin my shift. I was 
told then that there had been a collapse. My heart sunk as I knew my 
brother had worked that shift. Then I saw his supervisor and my heart 
jumped as I believed he had gotten out. I ran to the supervisor and 
asked about Carlos. He admitted then that the supervisors had all left 
the mine for a meeting a few hours before the collapse. I was 
devastated and began to try to join in the rescue. I was prevented from 
doing such. That was the closest I have physically been to Carlos since 
that time. Unfortunately, he remains in a mountain, his method of death 
unknown. It is our hope that we can reach Carlos some day and take him 
to his homeland of Mexico for burial. In the mean time, my mother cries 
herself to sleep, as do my sisters. My father is left without a child 
and I am left without a brother, a brother I loved.
                                 ______
                                 
    [The prepared statement of Casandra Phillips follows:]

  Prepared Statement of Casandra Phillips, Sister of Brandon Phillips

    I want to thank Chairman Miller for the opportunity to submit this 
statement, and the United Mine Workers Association for all their help 
in this difficult time.
    Brandon Phillips was my brother. We did a lot together. He has a 
son, my nephew Gage Phillips. He is now five and is without his father. 
I do not want this to happen to anyone else's kids.
    In the meetings with MSHA and Mr. Murray after the collapse, I got 
a feeling they were not telling us the truth. I wondered if they were 
really drilling all those holes. Without any family representative or 
United Mine Workers Association representative verifying it, how could 
we know whether they were really drilling those holes? In every meeting 
they would tell us the same thing. The story never changed.
    I would like mine owners, operators and MSHA to do a better job of 
checking the mines to make sure they are really safe.
    I would like to thank all the miners and the rescue teams for all 
their help.
                                 ______
                                 
    [The prepared statement of Aydaliz Sanchez follows:]

   Prepared Statement of Aydaliz Sanchez, Daughter of Manual Sanchez

    August 6, 2007 was the day I lost my dad, Manual A. Sanchez. I 
could not believe what was happening. I had a call from my mother-in-
law, Careleen Peacock, at about 9:30 a.m. asking me if my Dad was home. 
She told me that the mine had caved in. I looked out the window and his 
truck was not there. I called my mom and she did not know his status. 
She called the mine and they would not tell her anything but to just go 
to Huntington.
    My husband and I were the last ones to talk to him. He came to my 
house and knocked on the door. We sat outside and talked. Then he said, 
``well, I have to go * * * gotta work,'' and left. I still remember 
that day and will always keep it with me.
    I hate the fact that he will not see my daughter and nephew grow 
up. I hate the fact that he will not be able to walk my sisters, Ariana 
and Apoliana, down the aisle when they get married. I hate the fact 
that he will not be able to see my brother Arturo Sanchez graduate from 
college. He won't be able to grow old with my mom.
    We will miss him on Thanksgiving, which is often around his 
birthday on November 26 th. I will miss him on Christmas when he would 
always come home with the most ugly tree. I will miss that!
    I miss him coming down the street in his truck and his loud music, 
which showed me that it was him that was coming. I will miss asking him 
to help me with something and he would say, ``do it yourself and that 
is how you will learn and I will watch you.'' That is how I learned to 
change the oil in a car and pull a trailer with my truck.
    I have so many mixed emotions--I am mad, sad and angry. I miss him 
so much, his cooking and his laugh. I miss him giving me grief for 
marrying a ``white guy.'' But I loved him anyway. I will miss him so 
much. I wish I had a grave to go to, to pay my respects. I am afraid 
that will never happen.
    We put all our trust in Mr. Murray. That is what makes me most 
angry. I put my trust in Mr. Murray. He said that he would get them out 
dead or alive. What happened to that promise? My Dad deserves a grave 
and not to be left inside that mine like an animal. My Dad died working 
for Mr. Murray. Mr. Murray owes my dad. I want him to get him out and 
the other five--Mr. Allred, Mr. Erickson, Mr. Payan, Mr. Hernandez and 
Mr. Phillips. These men died making Mr. Murray money. Mr. Murray needs 
to get them out and give us all closure.
    I want to thank Chairman Miller for the invitation to give this 
written testimony, and the United Mine Workers Association for all it 
has done for us.
                                 ______
                                 
    [The prepared statement of Marta Sanchez follows:]

      Prepared Statement of Marta Sanchez, Wife of Manual Sanchez

    I want to thank Chairman Miller for the opportunity to come to 
Washington and observe these proceedings. I also want to thank the 
United Mine Workers Association for its generous help to make it 
possible.
    August 6th is when a mining tragedy changed my life and the lives 
of our children. We could not believe that this was happening. We 
thought it was a nightmare but tragically it is not. Even now I 
continue thinking that we lost a father, a husband who was our entire 
life for 23 years. I cannot believe this. I am impotently angry that my 
children do not have a worthy grave for their daddy. I feel frustrated 
that I still have not been told by Mr. Murray or MSHA whether one day 
having a proper grave will be possible.
    My children and I cannot resign ourselves to how it is possible 
that he went to work one day and now we will never see him again. This 
has affected me and my children greatly.
    I did not want to go to the family briefings by MSHA and the 
companies because things only got worse. They never gave us any hope 
for anything. The pain I feel not knowing whether my husband died 
instantly or whether he suffered greatly inside that mine makes me feel 
even more frustrated because I feel like I will never be able to rid 
myself of these thoughts.
    It is my hope that MSHA will do more in the future so tragedies 
like this do not happen to other families because this terrible event 
has affected us physically, mentally and emotionally.
                                 ______
                                 
    [Whereupon, at 1:35 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
